<html>
<title> - THE BORDER: ARE ENVIRONMENTAL LAWS AND REGULATIONS IMPEDING SECURITY AND HARMING THE ENVIRONMENT?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 THE BORDER: ARE ENVIRONMENTAL LAWS AND REGULATIONS IMPEDING SECURITY 
                      AND HARMING THE ENVIRONMENT?

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                and the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                       FORESTS, AND PUBLICE LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2011

                               __________

                           Serial No. 112-34

              Committee on Oversight and Government Reform

                           Serial No. 112-24

                     Committee on Natural Resources

                               __________

   Printed for the use of the Committees on Oversight and Government 
                      Reform and Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
68-220                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5235223d12312721263a373e227c313d3f7c">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 15, 2011...................................     1
Statement of:
    Reyes, Hon. Silvestre, a Representative in Congress from the 
      State of Texas.............................................     8
    Vitiello, Ronald, Deputy Chief, U.S. Customs and Border 
      Patrol; Kim Thorsen, Deputy Assistant Secretary for Law 
      Enforcement, Security, and Emergency Management, U.S. 
      Department of the Interior; and Jay Jensen, Deputy Under 
      Secretary for Natural Resources and Environment, U.S. 
      Department of Agriculture..................................    18
        Jensen, Jay..............................................    36
        Thorsen, Kim.............................................    29
        Vitiello, Ronald.........................................    18
    Wood, Gene, National Association of Former Border Patrol 
      Officers, founding member and former sector Chief Patrol 
      Agent, McAllen, TX, and San Diego, CA; George Zachary 
      Taylor, National Association of Former Border Patrol 
      Officers, founding member and retired Supervisory Border 
      Patrol Agent, Nogales, TX; Jim Chilton, Chilton Ranch, 
      Arivaca, AZ; and Anu Mittal, Director, Natural Resources 
      and Environment, U.S. Government Accountability Office, 
      Washington, DC.............................................    68
        Chilton, Jim.............................................   130
        Mittal, Anu..............................................   138
        Taylor, George Zachary...................................    83
        Wood, Gene...............................................    68
Letters, statements, etc., submitted for the record by:
    Chilton, Jim, Chilton Ranch, Arivaca, AZ, prepared statement 
      of.........................................................   132
    Jensen, Jay, Deputy Under Secretary for Natural Resources and 
      Environment, U.S. Department of Agriculture, prepared 
      statement of...............................................    38
    Mittal, Anu, Director, Natural Resources and Environment, 
      U.S. Government Accountability Office, Washington, DC, 
      prepared statement of......................................   140
    Quigley, Hon. Mike, a Representative in Congress from the 
      State of Illinois, prepared statement of...................   173
    Taylor, George Zachary, National Association of Former Border 
      Patrol Officers, founding member and retired Supervisory 
      Border Patrol Agent, Nogales, TX, prepared statement of....    85
    Thorsen, Kim, Deputy Assistant Secretary for Law Enforcement, 
      Security, and Emergency Management, U.S. Department of the 
      Interior, prepared statement of............................    31
    Vitiello, Ronald, Deputy Chief, U.S. Customs and Border 
      Patrol, prepared statement of..............................    21
    Wood, Gene, National Association of Former Border Patrol 
      Officers, founding member and former sector Chief Patrol 
      Agent, McAllen, TX, and San Diego, CA, prepared statement 
      of.........................................................    70


 THE BORDER: ARE ENVIRONMENTAL LAWS AND REGULATIONS IMPEDING SECURITY 
                      AND HARMING THE ENVIRONMENT?

                              ----------                              


                         FRIDAY, APRIL 15, 2011

        House of Representatives, Subcommittee on National 
            Security, Homeland Defense and Foreign 
            Operations, Committee on Oversight and 
            Government Reform, joint with the Subcommittee 
            on National Parks, Forests, and Public Lands, 
            Committee on Natural Resources,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Rob Bishop 
(chairman of the Subcommittee on National Parks, Forests, and 
Public Lands) presiding.
    Present from the Subcommittee on National Security, 
Homeland Defense and Foreign Operations: Representatives 
Chaffetz, Labrador, Tierney, Lynch, and Quigley.
    Present from the Subcommittee on National Parks, Forests, 
and Public Lands: Representatives Bishop, Labrador, and Kildee.
    Also present: Representative Pearce.
    Staff present: Thomas A. Alexander, senior counsel; Brien 
A. Beattie, professional staff member; Molly Boyl, 
parliamentarian; Kate Dunbar, staff assistant; Mitchell S. 
Kominsky, counsel; Kevin Corbin, staff assistant; Carla 
Hultberg, minority chief clerk; Chris Knauer, minority senior 
investigator; and Lucinda Lessley, minority policy director.
    Mr. Bishop. All right. We are ready to start here, and some 
of our other colleagues will be joining us, and we will see how 
far we can get in this process. As you all know, there is a 
change in the schedule today, for truly unusual circumstances, 
so we will be interrupting as time goes on for votes 
repeatedly. We apologize for that. What we will do is simply go 
over. It will be one vote at a time. So we run over, come back, 
probably no more than a 10, 15-minute interruption as we go 
with that.
    So, with that, I am going to call this hearing to order. I 
note the presence of a quorum, which is pretty low bar for us 
here today. The Subcommittee on National Security, Homeland 
Defense and Foreign Operations and the Subcommittee on National 
Parks, Forests, and Public Lands are meeting today to hear 
testimony on how environmental laws and regulations impede 
border security operations and even harm the borderland 
environment.
    So, under the rules, the opening statements will be limited 
to the chairmen and the ranking members, whenever they show up, 
and so we can hear from our witnesses more quickly. However, I 
will ask unanimous consent to include any other Members' 
opening statement in the record if submitted to the clerk by 
the close of business today. Hearing no objection, that will be 
so ordered.
    I also ask unanimous consent that the gentleman from Texas, 
Mr. Reyes, who has asked if he could make a statement in the 
hearing, be allowed to be our first witness of the day if he is 
here when we reach that time, otherwise when he gets here we 
will interrupt you and allow that to take place. With no 
objection, that is ordered. I just banged the gavel.
    I also ask unanimous consent that the gentleman from New 
Mexico, Mr. Pearce, when he arrives be allowed to join us on 
the dais and introduce one of the witnesses and participate in 
this hearing. Once again, without objection, so ordered.
    And I will make my opening statement after my colleagues 
have had a chance to speak. So I will now recognize the 
chairman of the Subcommittee on National Security, Homeland 
Defense and Foreign Operations for his opening statement. Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you to my colleague and friend and 
chairman, Mr. Bishop.
    Today, we are examining the extent to which Federal 
environmental laws and regulations affect the ability of law 
enforcement to patrol and secure our borders. We also examine 
the extent to which restrictions placed upon border patrol 
agents are actually harming the environment.
    Since December 2006, the drug cartel-related violence in 
Mexico has continued to escalate in both frequency and 
intensity. In Mexico, almost 3,000 people were killed in 2007. 
That number increased to almost 7,000 in the year 2008, more 
than 9,500 people killed in 2009, and by 2010 that number is 
now over 15,000.
    According to reports, most of these crimes occurred in or 
within a short distance of the U.S. border towns, and Americans 
have also suffered. Three U.S. law enforcement officers have 
been injured or lost their lives in recent months. On February 
15, 2011, two U.S. Immigration and Customs Enforcement agents, 
Zapata and Avila were both shot in the line of duty. Mr. Zapata 
later died from his injuries. In December 2010, U.S. Border 
Patrol agent Brian Terry was fatally shot near Tucson, AZ, 
while attempting to prevent criminal activity along the border.
    Now, at this point, I was going to show you some of the 
brutal photos. Having reviewed those photos, they are so 
graphic and so disturbing I worry about sharing them in this 
format here.
    This deep and continuing increase of violence just across 
our southwest border raises serious concerns for the public and 
Members on both sides of the aisle. The Department of Homeland 
Security is responsible for securing the U.S. border. In 
response to illegal activity at the southwest border, including 
illegal activities occurring on Federal land, the Department of 
Homeland Security has in the last few years increased the 
amount of agents and resources directed toward preventing human 
smuggling, drug trafficking, kidnapping, and illegal 
immigration. Despite the increase of Federal resources Richard 
Stana, Director of Homeland Security issues at the GAO, the 
Government Accountability Office, has identified gaping holes 
in our border security strategy. Just recently Mr. Stana 
testified that there are only 129 miles of the roughly 1,954 
mile long southwest border where the border patrol can 
actually, ``deter or detect and apprehend illegal entries.'' So 
let me repeat, only 129 of the nearly 2,000 miles are 
adequately secure.
    This is unacceptable and the Federal Government should be 
ashamed. With the Federal Government spending billions of 
dollars on flawed border security strategy, we must find a 
better solution that is comprehensive, intelligent, and cost 
effective. Because of the Department of Homeland Security's 
inability to secure much of the border, our national security 
depends on Border Patrol's access to Federal lands.
    In 2006, the Department of Homeland Security, Department of 
Interior, and the Department of Agriculture all entered into a 
memorandum of understanding. The purpose of this MOU was to 
guide and facilitate Border Patrol activities on Federal lands. 
It also sought to ensure that concerns about protecting the 
environment would be addressed.
    The MOU emphasized the need for cooperation and timely 
responses by Federal land managers to requests by the Border 
Patrol. According to the MOU, the parties agreed to cooperate 
and do so, ``in an expedited manner.'' However, a recent GAO 
report authored by Ms. Mittal indicated that, ``cooperation has 
not always occurred,'' between Department of Homeland Security, 
Interior and the USDA. They will be testifying today all on the 
same panel.
    Border Patrol agents in charge of 16 of the 26 stations 
have told the GAO that, ``when they attempt to obtain a permit 
or permission to access portions of Federal lands, delays and 
restrictions have resulted from complying with land management 
laws.''
    I fully support the utmost protection of our environment 
and multiple uses of public lands, but at the same time we must 
listen to the Border Patrol agents who put their lives on the 
line every day. Some agents have asserted that delays resulting 
from environmental laws have, according to Ms. Mittal's report, 
``lessened agents' ability to detect undocumented aliens.'' 
Again, this is totally unacceptable.
    An unsecured border is a national security threat. The 
sooner this administration realizes this fact and acts 
accordingly, the safer we will all be.
    I look forward to hearing from our panel of witnesses. I 
appreciate all of you, the time, effort. Many of you have 
travelled from great distances. We appreciate you being here 
today. I yield back the balance of my time.
    Mr. Bishop. Thank you. Representative Grijalva, who is the 
ranking member on my subcommittee I see on the floor. So I know 
he is here with us in spirit, and as soon as he arrives, he 
will be recognized to give any opening statement if he would 
wish to do that.
    We do have the ranking member from Government Ops, whatever 
your title is now, here. I appreciate Mr. Tierney for joining 
us and I will recognize him for as much time as he wishes to 
make an opening statement.
    Mr. Tierney. Thank you, Mr. Chairman, and thank all of our 
witnesses that will be testifying today.
    The question posed by today's hearing is whether 
environmental laws prevent the Border Patrol from safely 
securing our border. The unanimous answer in written testimony 
from the Border Patrol, the Department of the Interior, the 
Department of Agriculture, and the Government Accountability 
Office appears to be no.
    As Chief Vitiello made clear in his testimony, border 
security and environmental stewardship are not mutually 
exclusive. Let's not make an attempt to create a false choice 
where none exists. Of course, the Wilderness Act and other 
environmental laws place some restrictions on the Border 
Patrol's operations in sensitive areas, but according to the 
bulk of testimony that we will receive today, those 
restrictions impose a relatively low burden that has been 
successfully managed through interagency cooperation.
    Mr. Chairman, this isn't to say that there are not serious 
incursions on our border. We know, for example, that drug 
smugglers and human traffickers continue to use Federal lands 
to perpetrate their illegal activities. Nonetheless, while some 
of these lands are used to commit illicit activity, many are 
also home to precious environmental resources, cultural 
heritage sites, and endangered species.
    The message from today's hearing is that the Border Patrol 
believes that it can effectively achieves its border security 
mission and be a responsible steward of the environment at the 
same time. The Department of the Interior and the Department of 
Agriculture agree, and the Government Accountability Office, 
which has studied this issue extensively, concurs.
    This committee is no stranger to the challenges posed by 
securing the southern border and the ongoing violence in 
Mexico. In the last Congress, for example, the committee held 
several hearings examining the security threats posed by drug 
cartels in Mexico and Federal strategies to confront those 
challenges. Tragically, over 30,000 citizens of Mexico have 
been killed there in the last 4 years in wanton drug violence.
    There are many real challenges that undermine our mission 
to secure our borders, but almost by all accounts today 
environmental restrictions are not one of them.
    Mr. Chairman, I look forward to working with you to 
identify and tackle the very real challenges that do confront 
our border security. Thank you.
    Mr. Bishop. I thank the gentleman for his opening 
statements. I am prepared to give mine at this particular time.
    Look, I am glad that we are all here on this particular 
process and especially that we will be joined by a couple of 
people. Representative Grijalva, who will be here soon, 
Representative Giffords, who we pray for a speedy recovery to 
soon join us, and Representative Pearce, who has joined us on 
the dais represent the areas that are most impacted, and I 
appreciate their significance and their problems as they try to 
tell their constituents why they are being inundated with a 
problem that basically has solutions that we could find here in 
Washington if we wished.
    The issue is illegal entrance into this country. I think 
the bottom line has to be that it is unacceptable, even one is 
unacceptable, but what is happening today is unacceptable. 
Homeland Security, the Forest Service, and Department of 
Interior all have the responsibility in here, and the bottom 
line is what you are doing isn't working. The status quo is 
unacceptable. If things are getting better--and the GAO report 
said in some areas it is getting better--that is positive, but 
it is not good enough, and it is not just people coming across 
the border searching for a better life.
    What is a concern for us is that the people who are coming 
across the border are the drug cartels who are destroying the 
lives of our kids with illegal drugs. There are prostitution 
rings. There are human traffickers. There are people who are 
being assaulted and raped and murdered on American land, and 
that is unacceptable. And what is worse, American citizens 
living in this area are being threatened and being killed, and 
that is simply unacceptable.
    If I can have map 2 up there which shows all the regions 
that have been coming here from the last bit of data. Now, some 
of those regions are doing very well. I think the number of 
people who have been apprehended in Maine, I think the number 
is 56, which shows that Canadians from Nova Scotia are not 
coming here to take our hockey jobs. But in each of the last 2 
years for which we have numbers, it is about a half million 
people have been apprehended. That is the ones we caught, not 
the ones who came in. And if you look at the numbers, a quarter 
of a million of all those went through the Tucson sector by 
itself. Fifty-one percent of those who are coming into this 
country are coming in through that one sector, and no wonder 
you can understand why Arizona reacted the way it did and 
passed legislation in their State legislature because that is 
almost a thousand people a day being apprehended through their 
sector alone, and Tucson isn't all of Arizona. You have Yuma in 
there at the same time.
    So the question has to be why is that the access of choice 
for those coming in here? Can I have map 1. This is the 
borderland by definition and borderland is a hundred miles 
above the border. Everything red on that map is owned by the 
Federal Government. In places where we are having success, 
there is not a whole lot of red. In the places where the 
problem exists it is red. The GAO report said 97 percent of all 
the apprehensions are now coming on Federal lands.
    When we built the fence, 36 laws were waived in order to 
build the fence. One makes the assumption that those 36 may 
indeed have a reason in the problem that Border Patrol has in 
securing the borders right now. Department of Interior, I am 
sorry, but your response so far has been No. 8, which is to set 
up a sign telling Americans not to go on American property. 
Now, the outrage at these signs for secure was major, and you 
pulled them down which is right, but the attitude has not 
changed. A sovereign country has to control its sovereign 
lands, and we are not doing that and that is simply 
unacceptable. It is still unsafe for Americans to go into 
America, and that is simply unacceptable.
    A representative from Homeland Security will come in here 
and basically tell us that things are fine, we are getting 
along, we are improving. I just want you to know I don't buy 
it. I don't buy it because the logical assumption of that 
testimony means Border Patrol is incompetent to do their job, 
and I don't believe that for 1 second. I believe the Border 
Patrol is competent to do the job, but there are frustrations 
with the Department of Interior and the Forest Service, and if 
I can have No. 4, I believe, that prohibits them.
    These are the old barriers we used to have along the 
border. They have been removed as we have gotten better 
barriers, and now one land manager, under the direction of the 
Department of Interior, used these borders not to secure the 
border but to stop the Border Patrol from entering into areas 
he did not wish them to enter. That is unacceptable.
    The Border Patrol can do their job if they are allowed to 
do their job. Even Senator Bingaman, who is not a hawk on the 
border, introduced a wilderness bill for New Mexico and 
recognized in his bill that there should be a 5-mile strip 
along the border in which the Border Patrol have total access. 
He got the right idea. He just had the number wrong. Five miles 
doesn't cut it.
    The GAO report that came to us, a lot of people have taken 
one sentence out of context, which said that 22 of the 26 
stations said things are fine, unaffected by land management 
practices. However, if you read the entire report and went down 
to page 32, you would see that what they said is, in other 
words, no portions of these stations' jurisdiction has had 
their border security status, such as controlled, managed, or 
monitored, downgraded as a result of land management laws. To 
me, that is not the same thing, especially if you look at the 
rest of the report and see how 17 out of 26 of the stations 
said they did have monitoring delays and portions of their 
programs were delayed; 14 out of 17 did say they could not get 
waivers from land managers in a timely manner. The majority did 
say cooperation has not always occurred. The data is not 
accurate, as it says some land managers monitor areas in a 
routine basis, some document on an ad hoc basis, still others 
collect no data at all.
    The EIS statement can take over 75 days to accomplish. 
Three out of seven said the wilderness restrictions cause a 
problem for them. Five out of seven said the Endangered Species 
Act causes a problem for them. There was one area in Arizona it 
took 4 months to get permission to move a mobile surveillance 
system, and the reason for it, according to the manager down 
there, he has limited staff with numerous other priorities. 
This was not important to him.
    In a place in Arizona it took 6 months to get permission to 
improve roads that the Border Patrol needed on Bureau of Land 
Management land to conduct patrols and surveillance equipment; 
8 months in another area to allow improvements for truck 
transportation to move an underground sensor that didn't take 
place.
    I find it interesting that in some places it simply never 
happened. The Border agent in charge told us that maintenance 
needed for five roads and two surveillance system sites within 
the station of operation, but they did not receive permission 
at all. So without these maintained roads the agents could not 
conduct routine patrols or reach the sites for mobile service 
systems even in an area of high illegal traffic.
    In another area where there are few roads, the agent said 
one additional road on an east-west corridor close to the 
border would be effective to combat the 8,000 miles of trails 
that undocumented workers have produced in this particular 
system.
    In another area of the National Forest, they actually 
approved for helicopter landings, because of its remoteness, 
and that is great, but unfortunately everything was delayed 
until 2011. Contrasting two previous examples when Border 
Patrol requested additional access in another national park 
wilderness area, the management land manager determined that 
additional Border Patrol access would not improve the 
protection of the resources. So what happened is they put those 
surveillance on land that is owned by the State of Arizona, not 
by the Federal Government, and it still created a 3-mile hole 
in the surveillance for undocumented workers. The land manager 
requested the Border Patrol to find a different location for 
the tower because of Wilderness Act restrictions and he 
explained that the Border Patrol did not demonstrate to him 
that the proposed tower was critical. He made the final 
decision, not the experts on the Border Patrol area.
    And I am sorry, the witnesses will tell you the memo of 
understanding is working; no, it is not. I am glad that you are 
becoming chummier with the memo of understanding, but the memo 
of understanding is not the same thing as border security. The 
memo of understanding is not a solution. It is a process and 
the process that the numbers show you on the first slide is 
simply not working.
    The results of that memo are unacceptable. The memo has 
failed. It was designed to fail, and it prohibits the Border 
Patrol from simply, in fact, actually doing their job. What the 
memo does is confer what people on the ground have contended 
and what Washington has denied. What we have to do is regain 
control of our lands from the drug cartels. National security 
has to be our No. 1 issue. To take the phrase from Bill 
Clinton, it's national security, stupid.
    If the fence needed 36 waivers to be done, Border Patrol 
needs those same kind of situations. Border Patrol should not 
be stopped or inhibited in anything they try to do. The 
environment is being trashed by illegal entry. It is not 
national security that is threatening our environment. It is 
the lack of national security that is threatening our 
environment.
    The Department of Interior must have better priorities so 
that human life takes a higher priority over what they are 
looking right now with the blinders they have. Environmental 
laws and border security are in conflict.
    You are going to hear a lot of spin today especially from 
the next panel of witnesses. One may hope, if I can phrase once 
again from Man for All Seasons, that when your head quits 
spinning it will be facing toward the front. What is happening 
right now is not acceptable and it has to change.
    All right. I appreciate your patience in that. Once again 
when Mr. Grijalva arrives, we will have his opening statement. 
I want to thank you. We have previously recognized Mr. Reyes, 
who will be here. We approved your presence here. We noted that 
you would be the first speaker for us. Your timing is 
impeccable. You came at just the right time to give your 
statement, and we appreciate the service and the history that 
you bring to it as one of those Border Patrol workers that did 
such a great job in an area where you were allowed to do a 
great job.
    You are recognized, Mr. Reyes.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Reyes. Well, thank you, Mr. Chairman, and Mr. Chairman 
as well, and Ranking Member Tierney, and I know Ranking Member 
Grijalva is probably on his way. I just saw him speaking on the 
floor. But thank you for giving me an opportunity to be here to 
lend my comments to the very important work that your two 
respective committees are doing.
    I guess one of the real first points I want to make and 
underscore is oftentimes we that both represent border 
districts and those that are elected to leadership positions in 
the border area get frustrated because decisions made here, 
particularly at the Federal level, often impact the communities 
and the relationship between communities and the Customs and 
Border Protection and other law enforcement agencies that have 
very important work to do to secure the Nation.
    So I want to tell you how much I appreciate the opportunity 
not just to be here this morning, but I actually was part of a 
field hearing that you did in Brownsville, TX, where the 
community got a chance both to testify and also to observe a 
hearing in process.
    Just last week the Committee on Homeland Security on the 
Senate side, Senator Lieberman's committee, asked my county 
judge to come up and give testimony. So she was up here and in 
fact made a number of points that I want to reinforce here this 
morning.
    First of all, I represent the safest city in the United 
States of over 500,000 people or more. It is interesting to 
note that five of our border cities, to include the two largest 
ones, El Paso and San Diego, and McAllen, Laredo and Tucson are 
in fact on the top 10 list of safest cities in the country. The 
reason I mention that is because oftentimes the rhetoric does 
not match what we are experiencing, those of us that live on 
the border. The border is not a lawless region. The border is 
not an area that is out of control. I can't say enough about 
the work that Border Patrol is doing. I can't say enough about 
the cooperation that exists to make sure that border 
communities are secure, feel secure, and our job is to make 
sure that the facts come out.
    So when we talk about the border region I would strongly 
recommend that you do a series of hearings, in particular maybe 
in those cities that are among the safest cities in the 
country.
    I speak from a perspective of having spent 26\1/2\ years 
working the border, working my way up from an agent, working 5 
years in the Del Rio area, Del Rio sector, and then being chief 
in two other areas, South Texas and El Paso, where I was born 
and raised. So I always wanted to make sure as a the only 
Member of Congress with that background that I get an 
opportunity to at least provide what I feel is very important, 
and that is accurate information about what is going on, and I 
don't expect people to take my word for it. I welcome and in 
fact, we have had a number of hearings, both in El Paso and 
other areas that have I joined both this committee and other 
committees that have that responsibility to take testimony but, 
most importantly, to actually go out there and see the work 
that is being done by our Border Patrol agents, see the work 
that is being done in concert with other agencies, both 
Federal, State, and local, which is very important, the 
cooperation that exists.
    I wanted to give one example of how that cooperation is 
important by citing a recent issue that existed in my community 
and that was there is one last section of fencing that needs to 
take place right near our downtown area in El Paso. In that 
area is also the water source that is literally 12 minutes away 
from the water treatment plant that when it was initially 
proposed to fence that area would have put that water source 
south of the fencing. So thanks to the cooperation of the 
Customs and Border Protection, consulting with the community, 
we came up with a compromise that we are going to close off 
that canal so that people that are intending on maybe taking 
some kind of a terrorist act against the United States don't 
have access to that water system. So we will close it off, the 
Border Patrol will get their fence, and the fence will also 
protect some infrastructure that the city was concerned about 
that is critical in controlling the water runoff during storms.
    Those are the kinds of cooperative and consultation efforts 
that make sense in our communities, and I guess today, I would 
ask that the decisions that are recommended from this committee 
be done with that spirit in mind, that we oftentimes want to 
make decisions, for instance, putting up a very expensive fence 
in areas that really don't need it, in areas where we can 
monitor it electronically, where agents have sufficient time to 
respond once those intrusions are known. They are the experts. 
I retired from the Border Patrol over 15 years ago, but I still 
am very much interested, keep in contact, and proud to say that 
they are not just my former colleagues but my friends and we 
need to do everything we can to support them, both because it 
is America's first line of defense but, most importantly, 
because the Border Patrol works on the theory that it is always 
better to consult with the local community because they are 
part of that community so that both priorities are reached, 
both the enforcement priority and the community priority as I 
just spoke about with the example I gave you.
    The last point I want to make is that when I retired we had 
a little over 5,000 agents in the whole Border Patrol. We have 
done a very good job of increasing the size of the Border 
Patrol. Today, there is over 20,000 agents. There is one area 
that I am concerned about that we haven't focused on and I hope 
we get a chance to do that, and that is at the ports of entry. 
Today, we are seeing alarming statistics of the amounts of 
narcotics that are being intercepted at those ports of entry, 
and across the Nation those ports of entry are carrying on a 
normal average about a 31 to 38 percent vacancy ratio in their 
ranks. That means many different things, including the fact 
that it creates a vulnerable environment for our country, but 
it also means long waiting lines for people wanting to cross 
the border and obviously it also means that based on the 
statistics we are seeing that more narcotics are coming through 
those ports of entry because that work force is overwhelmed. So 
I hope we get a chance to have hearings on increasing the size 
of officers at those ports of entry.
    I know that when you, if you ask Border Patrol here this 
morning, they can tell you the same thing and verify the fact 
that it doesn't make sense to have control in between the ports 
of entry and not at those ports of entry that account for 
millions of entries every single day from Mexico into the 
United States and also from Canada into the United States.
    So with that, thank you for giving me an opportunity to 
testify before you this morning and I would be happy to answer 
any questions you might have.
    Mr. Bishop. Thank you, Mr. Reyes. We are going to be 
respectful of your time, but does anyone have questions for the 
gentleman from Texas?
    Representative Chaffetz, go ahead.
    Mr. Chaffetz. Thanks for being here, and I know you care as 
much about this issue as anybody. From your perspective, Border 
Patrol agents are putting their lives on the line, they are 
going into inhospitable areas, people that they don't know, 
that they are trying to apprehend. Concern is the rural areas, 
particularly we have some environmental laws that prohibit the 
use of vehicles and other types of things. Can you really look 
somebody in the eye and say you know if you do this on foot, 
you are going to be equally as secure and safe and as effective 
as you would if you were in a vehicle? That is my concern is 
that, you know, and part of the testimony that we are about to 
hear in the written testimony that came before us, Kim Thorsen 
from Interior said, ``on any Federal lands at any time you may 
patrol on foot or on horseback.'' I can't imagine looking some 
Border Patrol agent in the eye and saying you know, sir, sorry 
you can't use the vehicle here, all the communication tools, 
safety and security and speed that you can get, you guys go out 
on foot. Is that really what we should be telling our Border 
Patrol agents?
    Mr. Reyes. Well, not so much foot, but I will tell you my 
experience has always been Border Patrol is a hardy bunch. They 
love patrolling on horseback. And there are a number of reasons 
for that, not only does it provide quick access in very rough 
terrain, but it also allows them to have a higher perspective 
of whatever is ahead of them and they can ride up on groups of 
people much faster and much safer. If you rely on----
    Mr. Chaffetz. Than a vehicle?
    Mr. Reyes. Than a vehicle. Well, remember what we are 
talking about are the areas that you just mentioned are very 
rough terrain, very uneven terrain. Yes, we have things like--
--
    Mr. Chaffetz. Some of it is flat as can be, right? I mean, 
it is not all mountainous.
    Mr. Reyes. No, no, it is not, but I guess from my 
perspective, from my experience, it just makes sense to give 
the tools to the Border Patrol that they need and in some of 
these areas what they want are the ability to patrol on 
horseback.
    Mr. Chaffetz. I guess the core question there is who should 
make that decision? Shouldn't that be the decision of the 
Border Patrol to say this is how we are going to secure our 
folks?
    Mr. Reyes. Well, the law says that the Border Patrol has 
the right of access anywhere, unrestricted anywhere within 25 
miles of an international border. They have that authority but 
the chiefs locally----
    Mr. Chaffetz. I wish that was true. My understanding is 
that is not true. My understanding is that is on private 
property but not on public lands. The issue here is, for 
instance, the Organ Pipe National Forest is one of the big 
issues. They can't do that.
    Mr. Reyes. And I know the area----
    Mr. Chaffetz. They have to go get permission from somebody 
who doesn't have the best interests of the Border Patrol in 
mind, that doesn't have to deal with the fact they are going to 
ask somebody to go risk their lives out on this public 
property.
    Mr. Reyes. I have been there. I have seen that area. I have 
talked to the chiefs that have been in charge of those areas.
    They don't have a problem of access, at least the ones that 
I have talked to, because they do patrol that area effectively.
    They have the same concerns that Chairman Bishop 
articulated, and that is, from an environmental perspective, 
the water jugs, the plastic bags, and all of that stuff that 
undocumented people leave are an issue for them.
    But access and the ability to patrol--and I am not speaking 
for them; they will be testifying.
    Mr. Chaffetz. Right.
    Mr. Reyes. But I am telling you, both from my experience 
and from talking to the chiefs in those areas, they don't--at 
least they have not told me that they are denied access to that 
area.
    Mr. Chaffetz. I want to conclude within my scope of time. I 
guess the point I am trying to drive home is, the Border Patrol 
should be making those types of decisions, whether or not they 
use a horse or foot or vehicle. And that is my driving point. 
Would you disagree or agree with that point?
    Mr. Reyes. I would not disagree, although----
    Mr. Chaffetz. Thank you.
    Mr. Reyes [continuing]. Don't discount the fact that the 
chiefs that are in charge of those areas have the best interest 
of officer safety in mind, first and foremost, but they also--
you know, one of the things that I have learned through my 
experience is, no one is more attuned--and I go back to saying 
the Border Patrol is a hardy bunch. No one is more attuned to 
the surroundings, to respecting nature, and those kinds of 
things. That is why I mentioned to you, one of the biggest 
complaints that I have heard is about the refuse that is left 
behind by undocumented people.
    Mr. Chaffetz. Thank you.
    I yield back.
    Mr. Bishop. Mr. Tierney, do you have questions for your 
colleague?
    Mr. Tierney. Yes, I do. Thank you.
    Mr. Reyes, thank you for joining us here this morning. And 
I do respect the fact that you have, I think, more experience, 
certainly, than any Member of Congress at your job on the 
Border Patrol, but you have also, since been a Member, been 
very focused on this area and continue because of your 
district, obviously, to be in touch with people on that. Which 
strikes me as--we are sort of trying to impose on you here some 
of the questions, you know, an outsider's view, that you have 
the experience but we still want to tell you what works.
    Mr. Reyes. Right.
    Mr. Tierney. And what I am hearing from you is that, 
basically, when there is an environmental law or regulation 
that might touch up on a conflict with a security issue, that 
it has been your experience that the agencies involved have 
been able to work it out pretty reasonably.
    Mr. Reyes. That is correct.
    Mr. Tierney. OK. My understanding, also, is the memorandum 
of understanding between different agencies is that, when there 
is an area of exigency, whether it be hot pursuit or some other 
security issue, the Border Patrol actually does have the 
ability to use motorized vehicles. Is that right?
    Mr. Reyes. That is correct. That I know of, nowhere on the 
border under emergency situations is the Border Patrol 
precluded from doing whatever it needs to do.
    Mr. Tierney. All right. And there was a question here a 
moment ago about, you know, who makes the decision. Well, we 
have laws in this country, and I would suspect that those 
prevail. Am I right?
    Mr. Reyes. Correct.
    Mr. Tierney. And you find the agencies generally try to 
implement those laws?
    Mr. Reyes. True.
    Mr. Tierney. And then the memorandum of understanding is a 
way to try to reconcile any conflicts that might appear within 
those laws?
    Mr. Reyes. Correct.
    Mr. Tierney. And your experience has been that the agencies 
have been able to effectively, under that memorandum of 
agreement and through other cooperative means, resolve any 
issues or problems, for the most part, that come up under that?
    Mr. Reyes. That has been my experience, yes.
    Mr. Tierney. OK.
    And I am just reading on that: ``The Border Patrol may 
access lands by motorized vehicle or otherwise in exigent or 
emergency situations.'' And that seems to cover any ground--
when it comes up to a final decision, the Border Patrol decides 
it is an exigency or an emergency and they need to have use of 
a vehicle and they go. Has that been your experience?
    Mr. Reyes. Yes, it has. And, you know, you have to remember 
that there are times when perhaps you have an airplane crash, 
you have some other kind of emergency, an agent is shot; the 
Border Patrol chiefs are not going to allow anything to 
interfere with being able to get in there and do whatever needs 
to be done to both secure the area and, most importantly, take 
care of whatever officer is injured.
    Mr. Tierney. Well, it appears, at least from this 
perspective, that our laws don't interfere with that either, 
that they are set up----
    Mr. Reyes. They do not.
    Mr. Tierney [continuing]. The laws and the agreements under 
them, to allow that to happen?
    Mr. Reyes. Absolutely.
    Mr. Tierney. So has it been your experience that there are 
other factors involved in sometimes causing difficulty for 
Border Patrol agents or others to get control over a particular 
area? Topography or, you know, the geography of an area, are 
they sometimes more of an impediment for the agency?
    Mr. Reyes. Well, sure. And that is why--again, the chief in 
the sector knows that area best. He is in constant 
communication with both the agent in charge of whatever area is 
in the station that you are describing. And decisions are made 
both in terms of being able to secure the area and how they 
would respond and with what they would respond.
    I mean, that is the chief's responsibility, to make sure 
that, in the case of a national emergency or an emergency 
affecting officer safety or the safety of maybe a rancher or 
maybe an undocumented person whose life is in jeopardy, they 
will make whatever decision needs to be made and have that 
access without any problem.
    Mr. Tierney. So how many years, Mr. Reyes, were you a 
member of the Border Patrol?
    Mr. Reyes. Twenty-six-and-a-half.
    Mr. Tierney. So, 26\1/2\ years as a Border Patrol agent and 
chief, 15 years in Congress representing an area that is very 
involved in that, and your conversations with the various 
agencies, representatives, and employees along there. How many 
instances are you aware of where an environmental law or one of 
the other laws that we are discussing this morning was an 
insurmountable impediment to the Border Patrol doing its work?
    Mr. Reyes. I can't think of any.
    In fact, I will tell you, Border Patrol agents work very 
closely in Texas with what we know as ``tick riders.'' And 
their job and their responsibility is to make sure that cattle 
does not come over from Mexico because of the kinds of diseases 
they would have. So Border Patrol works very closely--I worked 
with them when I was an agent.
    We work very closely with the Parks and Wildlife people; on 
occasion, DPS, the Department of Public Safety; and park 
rangers in general in the areas that they have a presence. So 
when you are wearing a badge and you have that responsibility, 
you want to make sure, to the extent possible, that you have 
both knowledge of who is there and an understanding that they 
are going to come to your assistance and you are going to go to 
their assistance, because of both the environment and the 
hostility of the area or, perhaps, either a drug smuggler or 
alien smuggler or others that might not distinguish and not 
know the difference between a Border Patrol agent, a park 
ranger, a tick rider, and others.
    Mr. Tierney. Well, thank you for coming this morning and 
sharing your extensive experience from a range of perspectives.
    Mr. Reyes. Thanks.
    Mr. Bishop. My good friend from Michigan, do you have any 
questions of Mr. Reyes?
    Mr. Kildee. Just a statement.
    I am from Michigan, and we border on Canada. So we have to 
sometimes look at our northern border, also. And, generally, 
those who do try to get into Michigan either come in by plane 
from Europe--the one person they caught trying to bring a plane 
into Detroit--but by water. And I have been impressed by the 
cooperation between the Border Patrol and the Forest Service 
and our Coast Guard. There are three very important--and I 
think we have to encourage that cooperation.
    And sometimes laws have to catch up with changed 
circumstances. And if there is need for change in laws, 
hearings like this might help that. I am not sure there is a 
need if there is already good cooperation.
    But I do appreciate your service to your district, your 
State, this country, and to this Congress. Thank you very much.
    Mr. Reyes. And I would just add, the Royal Canadian Mounted 
Police, Border Patrol has an outstanding working relation and 
history with them, as well, because we--at least it has been 
the history that most of the resources have been on the 
southern border with Mexico because that is where the pressure 
is. So we have less officers, and they depend on relationships 
with local law enforcement like the RCMP up there.
    Mr. Kildee. Well, one good Border Patrol person, Diana 
Dean, helped apprehend Ahmed Ressam, who was up to no good at 
all. She, with her training and her perception, was able to 
stop that.
    Mr. Bishop. Thank you, Dale. I appreciate it very much.
    The chairman, who is an ex officio member of this 
committee, is here. I will recognize him, and then I will 
recognize Representative Pearce from New Mexico.
    Mr. Issa. I will be quick.
    Have you been sworn in? Because I have a lot of questions 
for you.
    Mr. Reyes. I think every time you testify before Congress, 
the assumption is we are sworn in.
    Mr. Bishop. We have already sworn at him, but we haven't--
--
    Mr. Issa. Yeah, there you go.
    Congressman, thank you for being here, and thank you so 
much for bringing us an inside view from an outside agency.
    So that is the only reason I showed up here, was--I said, 
wait a second here, not only is this my committee room, this is 
one of my best friends in Congress and somebody I rely on for 
the kind of advice you just gave.
    So thank you. That is all I wanted to say.
    Mr. Reyes. Well, and thank you, Mr. Chairman. Because, as I 
have said publicly on occasion, many times, while we may differ 
in our politics, I think we all want to do what is best for our 
national security and the protection. And how we get there 
really is, I think, the important part, for many different 
reasons. These guys are the experts.
    I thank God that I have that background because I really 
enjoyed my 26\1/2\ years in the Border Patrol. I don't think 
there is a finer law enforcement group in the world than the 
Border Patrol. But, as you can expect, I am probably a little 
biased. But they do great work.
    Mr. Issa. Part of what we know about you is you used to be 
somebody.
    Mr. Reyes. Yes. Thank you.
    Mr. Issa. Thank you.
    Mr. Reyes. Well, thank you, Mr. Chairman.
    Mr. Issa. Thank you, Chairman.
    Mr. Reyes. And thank you for being here this morning.
    Mr. Bishop. Thank you, Mr. Chairman.
    You must be something special. He has never said anything 
that nice to me. Thanks a lot.
    Mr. Issa. In time, in time.
    Mr. Bishop. Yeah, yeah.
    Representative Pearce.
    Mr. Reyes. Well, remember, he was a member of my committee 
when I was chairman of the Intelligence Committee. We worked on 
many different issues. You know, one of the----
    Mr. Bishop. So you are telling me you have photos or 
something?
    Mr. Reyes. No, not that I am aware of. But we did work on 
some really tough stuff that will never--that people will never 
know publicly. But, again, it is about the national security of 
our country.
    Mr. Bishop. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here on this committee.
    And I thank my neighbor for his decades of service both in 
the Border Patrol and here in Congress.
    More a comment than a question. I am hearing what you are 
saying, that El Paso is the safest city in the United States, 
less than 15 miles--I mean, El Paso bumps up against one of the 
towns in my district.
    Mr. Reyes. Right.
    Mr. Pearce. And 15 miles from downtown El Paso, they 
literally bar their windows and doors, and they don't feel like 
they are in the safest place in the world. In fact, just about 
2 weeks ago, in Anthony, they declared their streets to be 
completely unsafe. And what can be done about it? And so, that 
is such a contrast from the safest city to just 15 miles away.
    Wasn't there a major highway that was shut down in El Paso 
last year because of gunfire? Was that the year before?
    Mr. Reyes. No. And just a comment about--Anthony is not on 
the border. And----
    Mr. Pearce. Sunland Park is on the border.
    Mr. Reyes. Right.
    Mr. Pearce. But I was in Anthony. Sunland Park is the same. 
They feel--they express tremendous concern for their safety.
    Mr. Reyes. Well, if you--we have to separate criminal 
activity by non-illegal-aliens that are coming through the 
area. And Anthony's streets were declared unsafe because of 
gang activity, the waring gangs there, which occurs throughout 
anywhere in this country.
    But the Border Highway, which literally runs right along 
the Rio Grande River, is the road that you were referring to. 
And, yes, there was a gun fight that occurred in Juarez, which 
may be the most violent city. Certainly, it is the most violent 
city in the Americas, but may be one of the most violent cities 
in the world because of the friction among the cartels. But 
there were bullets. The concern by the police department was 
that a stray bullet might hit a passing car there. It is just a 
consequence of the location of that highway.
    Mr. Pearce. Sure.
    Mr. Reyes. By the way, that----
    Mr. Pearce. If I could reclaim my time----
    Mr. Reyes. Go ahead.
    Mr. Pearce [continuing]. Mr. Chairman, I would point out 
that the gang signs, whatever the gang signs are from Mexico, 
Central America, have appeared on barns in the 2nd District of 
New Mexico, and it alarms people.
    Then we have the rancher that was killed. His ranch butted 
up against those ranches of ours.
    In the 26\1/2\ years that you served, what wilderness areas 
did you actually--were in your jurisdiction right under your 
command? Which wilderness areas did you--the formal designation 
of wilderness.
    Mr. Reyes. Well, as an agent, I worked the--what is known 
as the Amistad Lake area.
    Mr. Pearce. Is that wilderness? Is that designated 
wilderness?
    Mr. Reyes. Sections are. In fact, some of the--because of 
the excavations of some of the caves there, with hieroglyphics 
and all of that, they have been put under the jurisdiction of, 
I believe, the Department of the Interior.
    It is an area--Amistad Lake, as you know, like Falcon Lake, 
is right on the border. Half of it is in Mexico, and the other 
half is in the United States. And we had the responsibility for 
the U.S. side.
    Mr. Pearce. OK. Thank you, Mr. Chairman. If I could reclaim 
my time, I am about to run out of here. But I would just 
observe that Mr. Bingaman submitted a bill last year and the 
year before to make wilderness on the area. And, in contrast to 
your assertion that we had 25 miles access in every wilderness 
area on any place from the border, he actually had to, as a 
compromise, designate that we could get wheeled vehicles into a 
5-mile stretch. And that was a compromise. Initially, it was 
not.
    And wilderness--the Gila Wilderness--a long time ago, an 
airplane crashed from my hometown in the Gila. They had to 
backpack the bodies out. In other words, wilderness is a very 
restricted designation. We have had testimony that if we 
created the wilderness along the Rio Grande, that they would 
not be able to actually get bulldozers in to replace the 
earthen dams that washed out in the flood about 3 years ago, 
and then we would be subject to flooding for the rest of time.
    So wilderness area--I have the Gila Wilderness in my 
district. I went to the Organ Pipe National Monument, and I saw 
the signs. And we had the formal briefing that half of that was 
completely off limits to American tourists because of the 
illegal activity across the border. And if our agents were able 
to access that, it doesn't seem like that it would be off 
limits to American tourists because it was so dangerous. Many 
places in New Mexico, only a barbed-wire fence is there on the 
border.
    But, again, I yield back my time.
    Mr. Reyes. Mr. Chairman, if I can respond?
    Mr. Bishop. I will give you 15 seconds.
    Mr. Reyes. OK.
    The International Boundary and Water Commission has the 
authority to do the kind of work that--irrespective of 
wilderness designations, that Mr. Pearce was talking about, in 
terms of levees and dams and all of that. I think if you check 
that out, it will be clear who has the jurisdiction.
    Mr. Bishop. Mr. Reyes, I just want to give the benediction 
to your presentation here today by thanking you for being here. 
The written statement that you gave, I actually agreed with 
point after point of it.
    Our cities are improving. The Border Patrol is doing a 
great job there. In fact, one of the GAO report studies simply 
said the Border Patrol has put, in their words, put a strategy 
on high priority on border enforcement in urban and populated 
areas. It does work. Border Patrol can do their job when they 
are allowed to. But it has had the process of diverting large 
concentrations of illegal traffic to the Federal lands and 
other remote areas where you are talking.
    I agree with you, as well, that the agents should be able 
to respond as best they can. I agree, also, there are some 
areas that are so rugged, fencing is not a legitimate option 
for it, but, indeed, access by the Border Patrol is.
    And sometimes they do use horses better. Although Secretary 
Napolitano did say it may be inadvisable for officer safety to 
await for the arrival of a horse for the purposes to apprehend 
somebody. That sometimes is difficult. And, also, we will 
remember that all of those horses are fed wheat feed pellets, 
because you can't have perfect kind of horses.
    I also agree with you on three other points: that local 
consultation should be the best basis of making those kinds of 
decisions. I agree with what you said on the exigent or 
emergency circumstances. Although I will tell you that the MOU 
does have a definition of what those are, and they have not 
always been maintained by the land managers. There have been 
times land managers have told the Border Patrol different than 
what the MOU was supposed to. And that will come out in our 
testimony later.
    And the last one is, I definitely agree with the good idea 
you had on beefing up our port of entries. Actually, you said 
we should have more officers--I think you said we should have 
bigger staff there at the port of entry, which means size. So 
Mr. Chaffetz told me that what he is talking about are portly 
officers at the port of entries, in which case I took offense 
at that because he talking right about me.
    So, Mr. Reyes, I appreciate your being here. Thank you for 
your testimony. Thank you for being a part of this. And we 
thank you for that, and we will let you go back and do some 
real work now.
    Mr. Reyes. Thank you so much. And I look forward to working 
with you and your respective committees on these very important 
issues for our country. Thank you very much.
    Mr. Bishop. Great.
    We now have the next panel that will be joining us. But I 
understand the practice of the Oversight and Government Reform 
Committee is for the witness to be sworn in. So I would like 
Representative Chaffetz--all right.
    The next panel will come up very, very slowly, so the 
panel--as it gets set up for you. So if you want to come up 
slowly. Don't stand up yet; that is too fast.
    It is going to be a couple of seconds before we can get 
them situated up here.
    We will have, though, Ron Vitiello--and you can correct the 
pronunciation of that; I probably messed up everything--who is 
the deputy chief of the U.S. Customs and Border Patrol; Kim 
Thorsen, the Deputy Assistant Secretary for Law Enforcement, 
Security, the Emergency Management from the Department of 
Interior; Jay Jensen, Deputy Under Secretary for Natural 
Resources and Environment, Department of Agriculture.
    I didn't mess up you two's because they are just good old 
Danish names, and I can handle that.
    But in 1 second, we would ask you--and I think I am going 
to turn the chair over to Representative Chaffetz to take care 
of this portion.
    Mr. Chaffetz [presiding]. It is the practice of the 
Oversight and Government Reform Committee that all witnesses 
would be sworn in. So, those three witnesses, as well as the 
backup witnesses, to rise and raise your right hands, please.
    [Witnesses sworn.]
    Mr. Chaffetz. Thank you. You may be seated.
    And let the record reflect that all participants answered 
in the affirmative.
    Thank you.
    Mr. Bishop [presiding]. Thank you.
    All right. It is our hope at this time that, before the 
next vote occurs, that we can have the testimony of the 
individuals who are there.
    Do you care which order you go? Then let's take you from 
left to right, and we will start with Homeland Security, go to 
Interior, and then finish up with the Agriculture Department.
    And, once again, thank you for being here. As you should 
know--you have been here long enough to know this stuff--
everything is--your written testimony is in the record. 
Anything else you want to add, we can put into the record, as 
well.
    The timer is in front of you. When the yellow light comes 
on, you have 1 minute left. We will try and close it as close 
to that red light as is possible.
    Please.

 STATEMENTS OF RONALD VITIELLO, DEPUTY CHIEF, U.S. CUSTOMS AND 
BORDER PATROL; KIM THORSEN, DEPUTY ASSISTANT SECRETARY FOR LAW 
     ENFORCEMENT, SECURITY, AND EMERGENCY MANAGEMENT, U.S. 
   DEPARTMENT OF THE INTERIOR; AND JAY JENSEN, DEPUTY UNDER 
     SECRETARY FOR NATURAL RESOURCES AND ENVIRONMENT, U.S. 
                   DEPARTMENT OF AGRICULTURE

                  STATEMENT OF RONALD VITIELLO

    Mr. Vitiello. Chairman Bishop, Chairman Chaffetz, ranking 
members, and distinguished members of the subcommittee, it is 
my privilege and honor to appear before you today to discuss 
U.S. Customs and Border Protection's efforts concerning illegal 
activity on Federal lands.
    I am Ronald Vitiello, the deputy chief of the U.S. Border 
Patrol. I began my career in law enforcement in 1985 as a 
Border Patrol agent in Laredo, TX. Throughout my career, I have 
held numerous positions within the organization, both on the 
southern and northern borders.
    I would like to be clear that the border is a different 
place today than it was when I began my career. I have 
personally witnessed the evolution of the border over the past 
26 years both in terms of additional resources applied against 
the threat as well as the change in the adversary's ability to 
exploit border vulnerabilities. Last year, the Border Patrol 
apprehended approximately 463,000 illegal aliens, as compared 
to 10 years ago when we made 1.6 million arrests, a more than 
70 percent reduction.
    Although we have seen positive indicators of a more secure 
border, our work continues and will not end as long as those 
who seek to enter this country illegally. The Border Patrol's 
national strategy was implemented in 2004 and called for 
achieving control of the borders with the proper mix of 
personnel, tactical infrastructure, and technology. We sought 
to gain, maintain, and expand control at the border. With the 
assistance of Congress, we have seen an unprecedented influx of 
resources, and we are currently expanding our security efforts.
    In law enforcement, we operate within the confines of the 
rule of law and regulations. Would our efforts be easier 
without these legal frameworks? Yes, it would. However, we find 
a way to reasonably and sensibly solve problems within the 
parameters of law. Does the Border Patrol face challenges with 
respect to operating around protected lands when they are in 
our enforcement zones? Yes. But, again, we have been able to 
establish practical solutions to allow for mission success.
    In 2006, the Secretaries of the Departments of Homeland 
Security, Interior, and Agriculture signed a memorandum of 
understanding committing the signatories to ongoing operations 
on protected lands. It is understood that the Border Patrol 
cannot routinely patrol protected land in vehicles. 
Nonetheless, we do have access either on foot, horseback, and 
without restriction under exigent circumstances.
    Essentially, the MOU formalized an informal cooperation 
that has existed for years. Our field commanders, the chiefs, 
and the patrol agent in charge are tasked to consider the 
multiple environments they oversee in order to establish their 
requirements for where resources are required and how to best 
supply them.
    Each tract of land along the border has to be assessed 
individually. As our commanders lay out the requirements, we 
work through the environmental regulations in order to abide by 
the law, albeit without sacrificing the Nation's security. Some 
of this activity can be time-consuming, but, in the end, we 
have in place the necessary tactical infrastructure, 
technology, or resources.
    Additionally, we look at the border. Each area has to be 
taken individually, as no two stretches are the same. The 
activity levels and terrain vary widely from San Diego to 
Brownsville on the southern border.
    Through our security efforts, the Border Patrol intends to 
have a minimal impact on the environment. Agents are on the 
line every day, day-in and day-out, interacting with the 
communities in which they live. There are many varying opinions 
from the border communities, public interest groups, and the 
media alike, yet our mission is to enforce the laws duly 
enacted by Congress.
    The Border Patrol recognizes that we need many partners in 
our Nation's security efforts. We have learned that it will 
take a whole-of-government approach within law enforcement, 
within each of our duties, responsibilities, and authorities at 
all levels--Federal, State, local, and tribal. We have strived 
to move beyond mere collaboration and work toward operational 
integration with our Federal, State, local, and tribal and our 
international partners, moving forward in realizing the 
strength of joint planning and implementation in a targeted and 
focused manner.
    Our path forward and our security efforts applied will be 
risk-based. Accordingly, we will increasingly depend on 
information and intelligence to describe the intent and 
capability of our adversaries, thus defining the threat while 
continuously assessing our vulnerabilities. In doing so, we 
must be more mobile, agile, and flexible.
    Thank you for the opportunity to testify today. I do look 
forward to your questions.
    [The prepared statement of Mr. Vitiello follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.001
    
    [GRAPHIC] [TIFF OMITTED] T8220.002
    
    [GRAPHIC] [TIFF OMITTED] T8220.003
    
    [GRAPHIC] [TIFF OMITTED] T8220.004
    
    [GRAPHIC] [TIFF OMITTED] T8220.005
    
    [GRAPHIC] [TIFF OMITTED] T8220.006
    
    [GRAPHIC] [TIFF OMITTED] T8220.007
    
    [GRAPHIC] [TIFF OMITTED] T8220.008
    
    Mr. Bishop. Thank you.
    Ms. Thorsen.

                    STATEMENT OF KIM THORSEN

    Ms. Thorsen. Thank you, Chairmen Chaffetz and Bishop and 
members of the subcommittee. I appreciate the opportunity to 
appear before you today to discuss the important issues in 
border security and the Department of the Interior's role in 
the administration's collaborative efforts to address illegal 
cross-border activity on Federal lands.
    I am Kim Thorsen, and I am the Deputy Assistant Secretary 
for Law Enforcement, Security, and Emergency Management at 
Interior. I have been a law enforcement professional for 25 
years with both Interior and the U.S. Forest Service, and I 
have been involved in border issues for the last 8 years.
    I am joined here today by Jeanne Van Lancker, the acting 
director of the Office of Law Enforcement and Security for the 
Bureau of Land Management; Jim Hall, the chief of law 
enforcement for the National Wildlife Refuge System of the Fish 
and Wildlife Service; and Lane Baker, the chief of law 
enforcement security and emergency services for the National 
Parks Service.
    If I may, I would like to submit our full statement for the 
record and summarize my testimony.
    We appreciate the attention that your subcommittees have 
given to the issue of securing our borders. The Department of 
Homeland Security, including U.S. Customs and Border Protection 
and Border Patrol, has been given the mandate to secure our 
international borders and deter illegal border-related 
activity.
    At Interior, we have the responsibility of administering 
uniquely beautiful and environmentally sensitive lands along 
the borders. We recognize the significant ecological and 
cultural values of these lands, and we strive to maintain their 
character and fulfill our mission to protect and preserve these 
assets on behalf of the American people.
    We also recognize that these two objectives--securing our 
borders and conserving our Federal lands--are not mutually 
exclusive. We are not faced with a choice between the two; 
instead, we can and should do both.
    We at Interior are proud of the strong working relationship 
based on cooperation and a mutual commitment to accomplishing 
our important agency missions among all of our partner 
agencies. Federal agencies with law enforcement presence on 
Federal lands along the borders include the Border Patrol; 
Interior's agencies, including the Bureau of Land Management, 
National Park Service, the Fish and Wildlife Service, and, in 
certain circumstances, the Bureau of Indian Affairs; and the 
Department of Agriculture's Forest Service.
    Our agencies have developed a cohesive, cooperative 
approach to border security. In March 2006, Interior, DHS, and 
Agriculture entered into a memorandum of understanding 
providing the departments with goals, principles, and guidance 
related to securing the borders, addressing emergencies 
involving human safety and minimizing the environmental damage 
arising from illegal cross-border activities on Federal lands.
    We believe the guidelines contained in the MOU have been 
effective in providing both Interior and Border Patrol with the 
necessary framework to strike the appropriate balance for 
patrol and infrastructure access to Interior lands by Border 
Patrol, while continuing to maintain an emphasis on protection 
of Federal trust resources.
    Since entering into this MOU, the three departments have 
continually and successfully worked together to carry out the 
tenets outlined in the MOU at both the headquarters and the 
field levels. At Interior, we have established a department-
wide coordination structure to facilitate the regular 
coordination and collaboration between Border Patrol and 
Interior agency representatives. Additionally, Interior, 
Agriculture, and DHS have founded an interagency environmental 
and cultural stewardship training task force to build on 
existing environmental and cultural training for Border Patrol 
agents whose patrol activities include Federal lands.
    Collaboration is also taking place with the Border Patrol 
in the field. The Border Patrol, in cooperation with Interior 
and Agriculture, established a public lands liaison agent 
position for each of its 20 sectors. Interior land managers 
communicate and collaborate on issues of mutual interest or 
concern with those agents on a regular basis. In addition, 
Border Patrol agents frequently conduct joint patrols with 
Interior law enforcement personnel on Interior lands.
    This close coordination provides staff with training and 
orientation on each agency's mission, while enhancing Homeland 
Security activities and resource-related investigations. These 
few examples are just a sampling of the ongoing collaborative 
dialog and strong relationship that Interior agencies and 
personnel have developed with our colleagues in the Border 
Patrol.
    The deployment of Border Patrol personnel, equipment, and 
infrastructure along the southwest border has led to 
significant improvements in border security. We are very 
pleased with these improvements because of the enhanced 
security to our Nation and also because these efforts lead to 
overall healthier conditions on Interior lands along the 
border.
    During this deployment of additional border security 
resources, we have worked closely and well with the Border 
Patrol to avoid or mitigate impacts of these operations on 
Federal lands.
    In closing, I would like to recognize the collective 
efforts that Interior, DHS, and Agriculture have taken to meet 
the intent of the 2006 interagency MOU and the shared 
commitment by our departments to accomplishing the missions of 
our agencies.
    Chairmen Chaffetz and Bishop, this concludes my statement. 
I would be pleased to answer any questions that you or other 
members of the subcommittees may have.
    [The prepared statement of Ms. Thorsen follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.009
    
    [GRAPHIC] [TIFF OMITTED] T8220.010
    
    [GRAPHIC] [TIFF OMITTED] T8220.011
    
    [GRAPHIC] [TIFF OMITTED] T8220.012
    
    [GRAPHIC] [TIFF OMITTED] T8220.013
    
    Mr. Bishop. Thank you.
    Mr. Jensen.

                    STATEMENT OF JAY JENSEN

    Mr. Jensen. Thank you. Chairman Bishop, Chairman Chaffetz, 
Ranking Member Tierney, members of the subcommittees, thank you 
for the opportunity to appear before you today to provide the 
Department's views on border security on National Forest System 
lands.
    You have my written testimony for the record, but I would 
like to take this time to emphasize some key points.
    First, the Department and the Forest Service take very 
seriously the need to secure our Nation's border. We fully 
support, as it is in our common interest, that we address 
illegal U.S. border crossings, the smuggling of illicit 
contraband and people across the border, the crimes committed 
against those being smuggled, and other unlawful activities.
    Through all of this, it is important to recognize and 
empathize with the plight of those undocumented foreign 
nationals who are seeking a better life. Yet, there are impacts 
to national forests on both the northern and southern borders, 
particularly so on portions of the Coronado National Forest, 
where we are seeing issues related to excessive trash, human-
caused fire, and the safety of the recreating public. We are 
undertaking successful measures to mitigate these impacts.
    Second, I want to emphasize the close working relationship 
we have with the Border Patrol and our sister agencies in the 
Department of the Interior. As our testimony indicates, we 
participate in numerous joint patrol exercises, have assigned a 
full-time U.S. Forest Service liaison to the Border Patrol, 
communicate in real-time on the ground with each other, and 
work expeditiously to allow the Border Patrol the access they 
need while protecting the environment.
    In fact, just a few weeks ago, the Forest Service chief, 
Tom Tidwell, was in southern Arizona meeting with Chief Hill of 
the Tucson sector of the Border Patrol. They toured the border 
by helicopter to see and learn firsthand the challenges we face 
together.
    There is much to do, but we are seeing success. And to re-
enforce, the Government Accountability Office has even 
acknowledged the close cooperation between our agencies.
    Third, we are convinced that a well-protected border means 
well-protected public lands. The more we can assist the Border 
Patrol with stopping illegal traffic, the less impact there 
will be on the national forests. To date, we are unaware of any 
requests made by the Border Patrol where we have not been able 
to accommodate their needs in an expeditious manner and still 
protect the environment.
    Last, we want to thank the subcommittees for their 
attention to this important issue. We want to work closely with 
you and understand your concerns. Our experience to date tells 
us that we can accomplish our missions of securing the border 
and protecting the environment, recognizing that these are not 
mutually exclusive objectives. We will continue to make 
interagency progress with the Border Patrol and our sister 
agencies in the Department of the Interior in the 
accomplishment of our missions.
    This concludes my verbal testimony. Thank you. And I look 
forward to your questions.
    [The prepared statement of Mr. Jensen follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.014
    
    [GRAPHIC] [TIFF OMITTED] T8220.015
    
    [GRAPHIC] [TIFF OMITTED] T8220.016
    
    [GRAPHIC] [TIFF OMITTED] T8220.017
    
    [GRAPHIC] [TIFF OMITTED] T8220.018
    
    [GRAPHIC] [TIFF OMITTED] T8220.019
    
    [GRAPHIC] [TIFF OMITTED] T8220.020
    
    Mr. Bishop. Thank you. I appreciate all of you being here.
    Let me ask the first round of questions.
    For all of you, looking at the memo of understanding, it 
appears that a big part of the entire agreement hinges on 
access granted in the course of exigent or emergency 
circumstances.
    Ms. Thorsen, you are from DOI; let me deal with you. What 
is an exigent circumstance?
    Ms. Thorsen. Mr. Chairman, as outlined in the MOU, what we 
tried to do is ensure that the Border Patrol agent and then in 
their judgment determined what an exigent circumstance was, 
whether is was in pursuit of aliens----
    Mr. Bishop. Is there a definition in the MOU?
    Ms. Thorsen. Yes.
    Mr. Bishop. And what is that definition?
    Ms. Thorsen. ``Exercising exigent emergency authorities to 
access lands, including authority to conduct motorized off-road 
pursuit of suspected CVVs at any time, including in areas 
designated or recommended as wilderness or in wilderness study 
areas, when, in their professional judgment, based on 
articulated facts, there is a specific exigent emergency 
involving human life, health, safety of persons within the 
area, or posing a threat to national security.''
    Mr. Bishop. OK, that is the key element. So human life, 
health, safety of persons within an area, or posing a threat to 
national security.
    Are you aware that when my staff questioned one of your 
park superintendents and even the director of the National 
Parks Service told us separately that an exigent circumstance 
is life or death only? Now, is that what the MOU says?
    Ms. Thorsen. No.
    Mr. Bishop. OK. So this incorrect definition is not just 
the opinion of the Park Service. Unfortunately, the Fish and 
Wildlife Service director sent two letters to the Border Patrol 
telling them, in his opinion, that an emergency is defined as 
life-threatening circumstances, and, otherwise, Border Patrol 
has to continue to access the refuge on foot or on horseback, 
and also gave them a warning that if they violated his version 
of that MOU, within 6 months he would close all access down.
    Are you aware of that?
    Ms. Thorsen. No, I am not aware of those particular----
    Mr. Bishop. What are you going to do about it?
    Ms. Thorsen. Well, what we will do is ensure--and we are 
continually doing this with our partners, our agencies on the 
ground and with the Border Patrol--to ensure that the MOU is 
enforced as written.
    Mr. Bishop. It is nice. So you are now aware that the 
ground personnel in DOI are not operating under the same 
definition. You got it?
    Ms. Thorsen. Yes, Mr. Chairman.
    Mr. Bishop. OK. Well, you were right when saying that 
protection of land and protection of the border should not be 
mutually exclusive, that you should be able to do both. 
Unfortunately, you are not.
    Border Patrol agents in the field have explained to our 
staff that they believe the MOU could work but, unfortunately, 
it does not because the land agencies do not follow it.
    Mr. Vitiello, have you heard complaints from the field land 
managers that they are not following the MOU?
    Mr. Vitiello. I think that the MOU does give them the 
framework to do that. I think in any relationship there are 
differing sides and interpretations.
    Mr. Bishop. So how would you tell your Border Patrol if, 
for example, one of the land managers under DOI told them the 
MOU was no longer in effect because there was a new 
administration?
    Mr. Vitiello. Well, we have, you know, regular people on 
the ground that are designed to programmatically work these 
issues and then operationally understand amongst themselves how 
we are going to interpret--not how to interpret the MOU, but 
that the framework exists to solve any of the problems as they 
are raised.
    Mr. Bishop. So what would you tell that land manager when 
he said that?
    Mr. Vitiello. I would refer him to the public lands liaison 
officer. You know, I could call over to Kim's office, and we 
could talk about what, you know, the perceptions or actual 
restrictions were or should or should not be.
    Mr. Bishop. So if, especially in the GAO report, you showed 
multiple examples of where this MOU has broken down, Ms. 
Jensen, how will the MOU function if your employees don't 
believe they have to or are obligated to follow it? Or, I am 
sorry, Ms. Thorsen.
    Ms. Thorsen. As Mr. Vitiello said, our responsibility in my 
office, as well as our folks in the field, is to ensure the 
appropriate implementation of the MOU. And so we--and, in fact, 
the MOU describes a mechanism that, if things aren't working 
out at the local level, that that is to be moved up to the 
regional and then, ultimately, the headquarters level.
    So we have mechanisms in place to ensure that it is being 
implemented as outlined in the framework in the MOU. So it is 
our responsibility to followup on those instances and ensure 
that is, in fact, happening.
    Mr. Bishop. That doesn't work. And I appreciate it, but it 
doesn't work. It is not working. The reports are telling us, 
the anecdotal evidence, and, actually, the cumulative evidence 
is saying, that system flat-out is not working.
    Mr. Jensen, the fires you refer to in your testimony, how 
many of those are intentionally set?
    Mr. Jensen. Intentionally set? We don't track the numbers 
that actually we know that they are intentionally set. We track 
numbers of fires by human-caused and through lightning.
    Mr. Bishop. Why don't you track arson? Are the Forest 
Service employees discouraged from reporting arson?
    Mr. Jensen. Not at all.
    Mr. Bishop. Then why don't you track it?
    Mr. Jensen. We can dig into the numbers, as we conduct 
investigations on specific fires, to find the cause of those 
fires. And, in that sense, we can get to the answer, to the 
bottom of what caused those fires.
    Mr. Bishop. But you don't do that now. That becomes 
amazing, that it doesn't do it.
    You also said you were not aware of any kind of problems 
with where your agency has been impeding the Border Patrol. 
Check the GAO report. You will see it very much. I quoted from 
it here.
    My time is over. Mr. Tierney.
    There will be another round here.
    Mr. Tierney. So I guess--I am trying to listen carefully 
here to this. And it seems to me that there is some allegations 
here--not so much that the MOU, memorandum of agreement or 
understanding, doesn't allow for things to work properly, but 
there seem to be incidents reported where it may not have been 
implemented or worked effectively.
    Is that what you witnesses are hearing, as well? Or correct 
me if I am not hearing properly.
    Mr. Vitiello. I think that is accurate.
    Mr. Tierney. Ms. Thorsen.
    Ms. Thorsen. Yes, sir. That is my----
    Mr. Tierney. Mr. Jensen, is that what you are hearing?
    Mr. Jensen. I would agree.
    Mr. Tierney. OK. So are we getting ample training to the 
people in the field in all three departments so that they would 
have an appreciation for the memorandum of understanding in the 
chain of how they would cooperate and work with others?
    Mr. Vitiello. There is an ongoing, systematic way for folks 
to be exposed to it. We have it programmatically set up at each 
of the locations. And so that is a constant kind of process, 
because we do have turnover in the field, relationships change. 
And so there is a constant, you know, revolution of people who 
learn and then need to know and then move on; the next group 
gets the same kind of thing.
    So it is like any other relationship. There are ebbs and 
flows in the level of contact and its effectiveness.
    Mr. Tierney. Is there a high percentage of people that are 
between trainings or haven't been trained yet as they take on 
responsibilities?
    Mr. Vitiello. I would have to get you specific numbers, but 
it is our intent at each of the levels to have folks who are 
subject-matter experts in the MOU and then have the 
responsibility for the liaison and the operational contact.
    Mr. Tierney. Are any of you aware of any particular 
incidents or incidents where the Border Patrol agents have been 
absolutely impeded from carrying out their responsibilities by 
interference through the enforcement of some of these 
environmental and wilderness laws?
    Mr. Vitiello. I am not aware of any specifically, but I 
will tell you that, with 20,000 agents in the field, there are 
bound to be within these relationships differences of opinion 
and issues that get raised through the sector-level commands, 
the station level, certainly, and then up to the headquarters. 
We have had instances where we have talked about these things 
at every level, looking to solve whatever the issue is.
    Mr. Tierney. OK.
    Ms. Thorsen.
    Ms. Thorsen. Yes, I would actually agree with Mr. 
Vitiello's statement. There are instances where folks on the 
ground need to work through things. But our continual talking 
to them, meeting with some of our collaborative organizations 
that we have, the borderland management task forces and so 
forth, and our constant effort to ensure that any issues that 
aren't getting resolved at the very local level are bumped up 
through that mechanism, and, as I said earlier, all the way to 
headquarters.
    We are very involved in my office, personally, to ensure 
that anytime we hear there is maybe some impediment or there is 
a difference of opinion on the ground, that we figure that out 
and we make it happen so the Border Patrol can successfully 
carry out their mission.
    Mr. Tierney. Do you have disciplinary proceedings for those 
recalcitrant individuals that may be giving instructions and 
misinterpretations of the MOU?
    Ms. Thorsen. The folks on the ground are bureau employees, 
and those bureaus do have performance plans and disciplinary 
and sort of a whole performance program.
    Mr. Tierney. Do they use them?
    Ms. Thorsen. It is not my--I can't speak to that, actually, 
since I don't work in those bureaus.
    Mr. Tierney. Well, I mean, that is part of the problem with 
bureaucracies, right? I mean, we are here talking about one 
problem and you are giving us an answer and you can't answer 
for the other part.
    But will it be reasonable to assume that those incidents 
that may be reported by the Government Accountability Office or 
those incidents that Mr. Bishop or others here may point out as 
anecdotes or individual circumstances will be reviewed and 
action taken if it is warranted?
    Ms. Thorsen. Yes, I would agree with that.
    Mr. Tierney. Mr. Vitiello, do you agree that your agency 
will do that, as well?
    Mr. Vitiello. Yes, sir.
    Mr. Tierney. Mr. Jensen.
    Mr. Jensen. Absolutely.
    Mr. Tierney. All right.
    Is any one of you of a mind that there is a mutually 
exclusive application of the environmental wilderness laws and 
our security?
    Mr. Vitiello. That they are not exclusive, I agree.
    Mr. Tierney. You agree they are not exclusive.
    Ms. Thorsen.
    Ms. Thorsen. Yes, I agree.
    Mr. Tierney. Mr. Jensen.
    Mr. Jensen. Absolutely not. We are actually seeing examples 
where we are actually seeing success. And I think, just this 
year, we embarked upon a joint operation called Operation 
Trident that is occurring all throughout this year that is 
proving and demonstrating how we can work together and achieve 
both those goals.
    Mr. Tierney. Well, particularly with respect to fires, I 
would assume that it is in your interest and in the forestry to 
make sure that the border is protected and people aren't coming 
in and being a part of the human cause of fires, correct?
    Mr. Jensen. That is absolutely correct.
    Mr. Tierney. OK.
    And, Mr. Vitiello, I will just end with you. Are you, as a 
representative of the Border Patrol, here to lodge a complaint 
of any sort about the way that the environmental laws or 
conservation laws or wilderness laws or anything else are 
impeding the ability of you and your men and women to protect 
this country and protect our national security?
    Mr. Vitiello. No complaints. I agree that the framework 
allows us to solve this problem in a practical way. As Ms. 
Thorsen said, it is best to do that at the field with the folks 
that are responsible for implementation directly.
    Mr. Tierney. And you will do that?
    Mr. Vitiello. Yes.
    Mr. Tierney. Thank you.
    Yield back.
    Mr. Bishop. Thank you.
    Mr. Chaffetz.
    Mr. Chaffetz. Are you all familiar with the border security 
GAO report, February 15, 2011? This is the one, ``Preliminary 
Observations on Border Control Measures from the Southwest 
Border.'' We keep referring to the GAO report. Are you familiar 
with it?
    Mr. Vitiello. Yes, Mr. Chairman.
    Mr. Chaffetz. All three of you, yes? Yes?
    Mr. Jensen. Yes.
    Ms. Thorsen. Yes.
    Mr. Chaffetz. All right.
    Mr. Vitiello--I hope I am pronouncing your name right--you 
write in your written testimony, ``Border Patrol's enforcement 
efforts on Federal lands can pose unique challenges.'' What are 
the unique challenges?
    Mr. Vitiello. Well, I think the challenges are that they 
are--like a lot of the enforcement work that is done both for 
the Border Patrol and in all law enforcement, there is a legal 
framework which we operate in.
    Mr. Chaffetz. That is different, that is different because 
it is----
    Mr. Vitiello. On protected land, yes, it is.
    Mr. Chaffetz. And the access, your ability to patrol, is 
different than it is, say, on private land or different types 
of public land that aren't designated as wilderness, correct?
    Mr. Vitiello. Right. So, depending on the environment.
    Mr. Chaffetz. It is different.
    Mr. Vitiello. It is different.
    Mr. Chaffetz. Absolutely. OK.
    Seventeen of the 26 Border Patrol stations interviewed by 
the GAO indicated, ``When they attempted to obtain a permit or 
permission to access portions of Federal lands, delays in 
restrictions have resulted from complying with land management 
laws.''
    Would you agree with that or disagree with that?
    Mr. Vitiello. It is in the report, so I have no dispute 
about the fact----
    Mr. Chaffetz. But you also testify that there is no 
problem, everything is getting along rosy. And yet I go back 
and read this GAO report, and you have only secured 129 miles 
of a 2,000-mile border.
    You can't come before the American people and this country 
and say that everything is rosy and fine. People are dying, 
they are getting killed because we have those big, gaping holes 
in our security, and they are going into some of the most 
inhospitable pieces of land and they are dying. They are being 
dehydrated. They are going through these cactus-ridden areas, 
and they are dying. And we are putting Border Patrol out there 
and saying, ``Oh, just go on foot, just go on horse, because we 
would much rather protect this little cactus and this little 
roadrunner.''
    That is what I have a concern about. So for you to testify 
routinely that everything is fine, it is not different, I am 
not aware of any instance--and then read that we are having 
permit and permission troubles is troubling.
    Let me go on. According to the GAO, 14 of the 17 agents in 
charge--agents in charge, people that you should be personally 
familiar with--of the Border Patrol stations indicated delays 
by Federal land managers who reported that they have, ``been 
unable to obtain a permit or permission to access certain areas 
in a timely manner because of how long it takes for land 
managers to comply with environmental laws.''
    So how have these delays, based on this report, lessened 
the agents' ability to detect undocumented aliens in some 
areas?
    Mr. Vitiello. The report is a snapshot in time. The 
framework that is within the MOU allows those agents in charge 
to make those requests. And when those requests are judged by 
the public lands liaison or the borderlands task force to be 
reasonable, then we sort through that and make it happen.
    To suggest that it is perfect, that is not why I am here. 
It is a relationship that----
    Mr. Chaffetz. The reason you are here is because it is not 
perfect.
    Let me move on. As indicated by the GAO in at least one 
instance, Border Patrol requested permission to move a mobile 
surveillance system to a certain area. However, by the time the 
permission was granted 4 months after the initial request, 
illegal traffic had shifted to another area. As a result, 
Border Patrol, ``was unable to move the surveillance system to 
the locale it desired. And during the 4-month delay, agents 
were limited in their ability to detect undocumented aliens 
within a 7-mile range that could have been covered by the 
system.''
    True or false? Is that statement true or false?
    Mr. Vitiello. It is true.
    Mr. Chaffetz. So how can you testify that everything is 
fine and that you are working in such a great relationship? You 
have a surveillance system that I would think that would make 
your Border Patrol agents and the United States of America 
safer, and these people over here are giving you a 4-month 
delay.
    How come you are not here with the same type of outrage 
that I have? How come you are here just saying, ``Oh, you know, 
we work together. Everybody just gets along.'' We got people 
dying. How do you respond to that? Because you have testified, 
and we have listened to what you said, that, oh, everything is 
fine.
    Mr. Vitiello. The framework allows for us to move through 
these issues and this problem. Is it perfect, no? If you want 
to----
    Mr. Chaffetz. But in this instance, the report that came 
out, it is a 4-month delay.
    Ms. Thorsen, how do you respond to this? Mr. Jensen, jump 
in here. Four-month delay, why does that happen?
    Mr. Jensen. I am looking at--I am asking my folks here to 
find examples on the National Forest System land here. And we 
are working as quickly as possible to work through the requests 
that come through. And we have examples in front of us now: the 
Zone 20 project, where we are actually moving to build roads on 
restricted lands, where we are seeing success.
    It does not happen immediately in every single case, but we 
are actually--we are making tremendous progress in working 
together to address these concerns as they arise.
    Mr. Chaffetz. My time has expired. I yield back.
    Mr. Bishop. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    All of us feel on this issue certainly as strongly as Mr. 
Chaffetz, but I think, you know, some of us express ourselves 
differently. And I have been here 34 years, and I always find 
it a great opportunity when you have people from the field who 
know this issue very well to keep the level of trying to learn 
at a high level. So I really appreciate your helping to 
enlighten us. We are not always going to agree, but I think 
that we have this opportunity to learn from you.
    Let me ask you this question. I will address it to Ms. 
Thorsen, but any of you may answer. If there is an incident or 
a pattern of ignoring the MOU that we have been talking about, 
what is your reaction or response to that? And should there be 
something stronger than an MOU? Should there be something in 
law?
    Ms. Thorsen. Thank you, Congressman.
    Our actions, if there was a consistent pattern of ignoring 
the MOU, as I stated earlier, we have a mechanism in place to 
bring that to our attention at headquarters. And in numerous 
instances, I personally get involved, and other members of my 
staff, talking to Mr. Vitiello or Chief Fisher with the Border 
Patrol to come together to figure out what is going on. And 
then we also talk to our bureau representatives, bureau 
directors and/or their regional directors, who have direct 
control over those local units, and come together to discuss 
what the issues are and to resolve those issues.
    So we do it very--we do it very high-level. For any 
incident on the border that gets to our attention that we know 
about, we will take action such as that to ensure that it gets 
resolved on the ground. We hope most of those are resolved 
locally, but they are not all, as we have heard earlier. They 
do get to our attention.
    Mr. Kildee. Anyone else have any comment?
    Well, I would encourage you to, you know, keep it at a high 
level or even raise the level of importance. Because when 
agreements are made, very often they aren't easy to arrive at 
but they are done for a reason.
    So I would encourage you to keep it at the high level. I 
think it is very important. I would not want to stop a chase 
because someone didn't want to follow a memorandum of 
understanding which makes very good sense and is so important 
for, very often, our national security.
    So I would keep it at the high level; if necessary, raise 
it to a higher level.
    Thank you very much.
    Mr. Bishop. Thank you, Mr. Kildee.
    Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Ms. Thorsen, are you familiar with the operating memorandum 
of understanding between the Las Cruces BOM and the Border 
Patrol?
    Ms. Thorsen. Not particularly, sir.
    Mr. Pearce. Well, in it, it states very clearly that a 
mobile command--the mobile communications site there in the Big 
Hatchet Peak will be moved as soon as possible if the area is 
designated as wilderness. So it is there now, but if it is 
wilderness it can't be there.
    Doesn't that sound like a little bit of an impediment? Why 
wouldn't the people have decided to put it somewhere else to 
start with if that were a better place? Doesn't that sound like 
a little bit of an impediment?
    Ms. Thorsen. In that instance--that is an example--I 
understand that the repeater is on Big Hatchet Mountain. And 
if, in fact, legislation were passed, we would need to work to 
ensure that it could stay there. It is an opportune location.
    Mr. Pearce. No, I mean, it calls for it to be moved if it 
is designated wilderness. That says that conservation is 
trumping protection.
    Mr. Vitiello, you declare that wilderness and security are 
not mutually exclusive. And I know it is not exactly wilderness 
area, but the Organ Pipe National Monument that I visited in 
2006 as chairman of the Parks Subcommittee and they declared it 
to be inhospitable for American travelers, about half of it, is 
it still that way?
    Mr. Vitiello. No, we----
    Mr. Pearce. It is wide open? It is completely open to 
American tourists with no warnings?
    Mr. Vitiello. Well, I don't know the status of the 
visitation for folks----
    Mr. Pearce. Staff tells me it is still very alarming and 
that the warnings are still given to American tourists that you 
shouldn't be in this area.
    Mr. Vitiello. Yeah.
    Mr. Pearce. If the two are not mutually exclusive, why have 
you not--why doesn't that area fit into your 129 miles of 
secure border?
    Mr. Vitiello. The definition that gets us to the 129 miles 
is probably a lot longer conversation. But that----
    Mr. Pearce. Well, just----
    Mr. Vitiello [continuing]. Tactical measure for agents in 
the field is designed for----
    Mr. Pearce. I want to know why Organ Pipe has not been 
cleaned up. Why haven't you stopped the traffic that is 
polluting the area but also making it dangerous?
    Mr. Vitiello. We have made good progress at Organ Pipe and 
throughout the sector to----
    Mr. Pearce. You would send the Boy Scout troop down there 
that has your kids in it without your presence? I don't think 
so, sir. I am sorry, I was there. I saw the stuff. I don't 
believe you would.
    Mr. Vitiello. We have made excellent progress since 2006, 
Congressman.
    Mr. Pearce. I hear that. I also know that just last year or 
the year before that the rancher was killed right down in that 
area, and that was in retribution for him turning in the drug 
smugglers.
    Mr. Jensen, we visited in the Sequoia in that same 2006 
time period, and they actually showed us places where booby 
traps, sawed-off shotguns, the growing massive areas of drugs 
in the forest itself. Is that cleaned up?
    Mr. Jensen. I would have to go back and look at that 
specific area to know the status there. I do not know.
    Mr. Pearce. Do you have any other forest where--but you are 
familiar with the circumstances that I refer to?
    Mr. Jensen. The circumstances----
    Mr. Pearce. Do you have any other forests that have that 
many incursions of illegal activity in it so that people are 
warned, ``Don't backpack in this area; you could get your head 
blown off with a sawed-off shotgun that has a tripwire on it?''
    Mr. Jensen. We don't quite talk about it that way, but we 
do make sure----
    Mr. Pearce. Were the pictures that were given to me by the 
Forest Service incorrect?
    Mr. Jensen. I would have to see these those photos to know 
for sure.
    Mr. Pearce. Yeah. Yeah. So you wouldn't talk about it, but 
the pictures may have been correct. They were given to me in an 
official capacity, in an official briefing. So you wouldn't 
think it is incorrect that, if you hit a tripwire and it blows 
your head off with a sawed-off shotgun that is protecting a 
marijuana field----
    Mr. Jensen. No, what I wanted to say was we, want to make 
sure that visitors that come to the national forests are aware 
of the risks that are out there, as in any time you head into 
the back country. I couldn't speak to the specific situation--
--
    Mr. Pearce. Do you have any other forests where that sort 
of danger exists?
    Mr. Jensen. We are dealing with some similar issues down in 
the Coronado National Forest. And we make sure that the 
visitors to those areas are aware of the situation.
    Mr. Pearce. So Sequoia is one of two in a very, very 
dangerous category. And you don't know if it has been cleared 
up? That is alarming, my friend.
    Mr. Jensen. I would like to followup with you to understand 
a little more of the concerns you have.
    Mr. Pearce. I mean, still it is alarming that you are in 
the position you are in and don't know if we have eliminated 
those. That is what concerns me about the testimony of all 
three of you here today, that you are saying that there is no 
problem with wilderness. There is no problem with environment 
rules, and yet you can't explain some of the most dangerous 
areas that exist right in my back door.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    It is my intention to turn now to Mr. Lynch.
    And what we will try and do is get through this round of 
questioning. We have still a good 5 or 6 minutes, and a whole 
lot of people haven't yet voted. We will then suspend for a few 
minutes, go vote, then come back here probably around a 10-
minute break, if that is OK. Representative Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I want to thank the witnesses for trying to help the 
committee with its work. I do want to--I think the part of the 
frustration exhibited by Mr. Chaffetz was well founded, I 
think. And it is really a result of a GAO report. And I think 
this was this is an October 2010 GAO report on the Southwest 
border. And Gene Dodaro was acting then, and I have enormous 
respect for him. I have worked with him on a lot of different 
issues.
    But this report invites Mr. Chaffetz' frustration. It says 
basically that everything is fine. At least that is what the 
political appointees and the higher level folks are saying, 
everything is fine, we are working together. But then when you 
do talk to the agents in charge on the ground there, they are 
saying, 17 of the 26 stations, you know, reported that there 
were limitations put on their ability to patrol those areas, 
specifically the patrol agents in charge; 14 of 17 stations 
reported that they have been unable to obtain a permit or 
permission to access certain areas in a timely manner because 
of how long it takes to work with land management folks.
    And then earlier, Ms. Thorsen, you conceded that the folks 
on the ground, based on the chairman's questioning, were 
applying a different standard for border agents to get into 
certain areas. That is of great concern. And I think by this 
inconsistency in what we want to happen down there and what is 
happening is going to invite legislation here, because the MOU 
is not being followed. And it is against the backdrop of a very 
serious situation.
    I have a report here that says we had 600 more civilian 
homicides in one border town, Ciudad Juarez, in 2010 than we 
had in all of Afghanistan. And Afghanistan is 30 million 
people. Ciudad Juarez is 1 million, 1.3 million. And we had 600 
more homicides, and it is right on our border. I will tell you, 
I would be more angry than Mr. Chaffetz has been this morning 
if I thought that the safety of the people that I represented 
was being ignored.
    So you got to get your act together here. We expect you to 
protect the border, and we don't think that that is happening. 
Now, you say that you can do this, that you can get together on 
this and make sure the environmental concerns are addressed and 
still conduct robust security on the border. You need to do it. 
You need to do it. This is a--you know this is a problem. You 
know I think I have been to Iraq and Afghanistan about 22 
times. I think I should be spending more time in Mexico from 
reading these reports.
    And this is right on our border, and we can't afford to be 
slack anymore. So I am hoping that either you address it with a 
tighter description of what is permissible for the border 
security folks, or you just come to Congress and say, we can't 
resolve this, and why don't you do it on our behalf?
    But you know this can't continue, this cannot continue. You 
know the folks that live in those border towns on the Mexican 
side deserve better, and so do the U.S. citizens in that area, 
and we got to get serious about this.
    And so, you know, I think, Ms. Thorsen, if you have folks 
on the ground who are applying a different standard that 
restricts Border Patrol folks from going into some of those 
wilderness areas in a timely fashion to protect the American 
people, then you need to have some consequences here. And I 
didn't hear a real clear answer on that when the chairman asked 
you whether you--actually, I think it was the ranking member 
asked you, are folks being disciplined when they stop border 
security folks from going in there and doing their job? And I 
didn't hear a yes. I heard, well, we have you know guidelines 
that allow us to do that, but I didn't hear of anybody being 
fired for blocking access to certain areas on the part of the 
security folks.
    Mr. Vitiello, I know you give a rather rosy picture, but 
the facts don't bear that out, sir, I am sorry to say. So we 
got to, we have to be better at this. And you know, like I said 
before, I will close my remarks, but you are inviting, you 
know, Congress to go in there and decide what the rules are 
going to be. And 435 people are going to make that decision in 
the House and 100 in the Senate. It may not come out the way 
you think it will. It may not be a better solution than an MOU, 
a cooperative MOU between the two agencies, is what I am 
saying.
    So I just ask you to, as Mr. Kildee has suggested, you got 
to work together better and start living up to the terms of the 
MOU and making sure that our Customs and Border Patrol folks 
have access to that area. Thank you. I yield back.
    Mr. Bishop. Thank you, Mr. Lynch.
    Let me explain the process. Just for a point of information 
for Mr. Pearce's question, 68 percent of Organ Pipe is still 
off limit to Americans, and 95 percent of it is wilderness.
    We have a vote that is taking place right now, a second 5 
minute vote, and then a third vote that is 15 minutes. Although 
I am going to ask Members to come back here, to vote on that 
last one very quickly and then come back here. So I am still 
estimating about a 10-minute break that we will have to take 
right now and do voting.
    I apologize for this. This is an abnormal day. Under our 
new schedule, the morning should have been reserved for this, 
so I am sorry about that. I hate to walk out on you. We are 
going to try and get this through as quickly as possible, but 
we will have to take that break right now. So thank you and we 
will be back shortly.
    [Recess.]
    Mr. Bishop. All right. We are going to try and step up 
here. Obviously, some of our Members are en route, and we will 
work that through as the time comes on, because I think there 
is going to be another vote coming up here quickly. We would 
like to get this panel and let you get on your way afterwards.
    So let me do a couple of questions from my end as well. I 
want to set the stage in the right frame for the first time, 
because I think some of our conversation a bit earlier was 
somewhat disingenuine. When we were talking about the MOU not 
being able to be worked and the people weren't understanding, 
we are not talking about folks on the ground or some pions out 
there; we are talking about high level individuals. We are 
talking about the person in charge of the National Park that 
should know what those definitions of exigent circumstances are 
and should not have a tizzy fit when the Border Patrol comes to 
an end and then he gets upset because when they decided to 
leave that dead end, they made a circle route instead of the 
three-point Y turn that he insisted that they make in his 
particular park.
    We are talking about the National Park director who did not 
know the definition. We are talking about the director of the 
Utah--the U.S. Fish and Wildlife Service. He was the one that 
sent the letter to Border Patrol and did not put the definition 
and threatened them with closure if they did not by his 
definition of the MOU.
    The MOU is not working because people on the field don't 
understand it; it is people here in Washington that aren't 
getting it. The MOU may actually be working for the Department 
of Interior, but it is not helping national security. And that 
is the key issue to do with it.
    Now, I want to go for a few minutes with the Ajo project 
that was done in Organ Pipe National Monument. We already said 
that is 95 percent wilderness. This was dealing with 30 mile 
section of the border that was there.
    Once again, Ms. Thorsen, the result of the negotiations 
with--what was the result of the negotiations with Border 
Patrol over this Ajo project?
    Ms. Thorsen. At this point in time, Chairman, the Ajo 
project includes four towers that are situated on Organ Pipe 
Cactus and operating now and actually been very successful in 
their operation in supporting the Border Patrol security 
mission and actually our folks as well.
    Mr. Bishop. And what did Homeland Security have to do to 
get that permission?
    Ms. Thorsen. Well, my understanding, they met with the 
folks on the ground, the superintendent and his staff, to find 
the appropriate locations for those towers.
    Mr. Bishop. And what did they have to pay for that? Like I 
am running out of time here, I am sorry. They paid millions of 
dollars in mitigation fees for those towers. Were those towers 
eventually moved from where the Border Patrol wanted them? It 
should be a yes/no answer.
    Ms. Thorsen. My understanding is that some were moved.
    Mr. Bishop. Yeah, OK.
    Ms. Thorsen. Some were not. And in the end----
    Mr. Bishop. So what we are talking----
    Ms. Thorsen. If I may finish, Mr. Chairman. In the end the 
Border Patrol did agree and we all came to the conclusion on 
where those towers could be situated and still allow them to 
succeed in their border security mission.
    Mr. Bishop. But it was moved over 3 miles and we had a 
coverage blackout in areas of heavy alien ingress into this 
particular country because they were moved, and still Border 
Patrol had to pay millions of dollars to the Department of 
Interior to get that. When you demand money of Border Patrol 
for these mitigation fees, does the mitigation have to be 
specifically directed to the entity in which it is being 
mitigated, or can you use that anywhere?
    Ms. Thorsen. The purpose of mitigation funds, for instance, 
in this situation, any activity----
    Mr. Bishop. No answer the question. Does it have to be to 
the area where mitigation occurs, or can you use it anywhere?
    Ms. Thorsen. The funding has to be used in relation to the 
mitigation for that purpose, for the activity that took place 
for the tower.
    Mr. Bishop. All right. Good. Then tell me why, in January 
2009, you and the Border Patrol once again entered into an 
agreement dealing with the fencing in the Rio Grande Valley 
sector. You got $50 million from the Department of Interior, 
and $22 of that money went to buy more land in Texas for impact 
of ocelots, who supposedly were impacted because of the 
construction noise and lighting while that fence was being 
built.
    Now, Ms. Thorsen, do you know when the last time any know 
ocelot was found in the lower Rio Grande natural wildlife 
refuge before this fence was constructed in 2009?
    Ms. Thorsen. I do not know that, sir.
    Mr. Bishop. Good. I will give you the answer. It wasn't in 
this century. So if there is not existing ocelot population 
within 20 miles of the project, how come you have to have an 
ocelot impactment from noise and lighting that couldn't 
possibly have reached them?
    Ms. Thorsen. The Fish and Wildlife Service's and our 
Department of the Interior's mission is to conserve our 
resources, including the wildlife habitat.
    Mr. Bishop. I only got 30 seconds. Give me a specific 
answer to the question. If there are no ocelots down there why 
did you bill the resource from them with this type of money 
that has nothing to do with the project.
    Ms. Thorsen. It does have to do with the project, sir. The 
mitigation funding for the fence and the $50 million that you 
address, Secretary Chertoff and Kempthorne agreed that the 
expenditure of that funding was appropriate for those 
mitigation measures.
    Mr. Bishop. There are no ocelots down there.
    Ms. Thorsen. The wildlife habitat in those locations down 
there, the purpose of that is to maintain habitat for the 
ocelot. Whether or not we have seen one recently, it still 
habitat for the ocelot.
    Mr. Bishop. Recently? In the last 20 years, you haven't 
seen one, and yet you put half of the money from this extortion 
down there for that particular project. Later I am going to ask 
you about $5 million that was supposed to be for jaguar 
prevention, but half of that went to Mexico instead. We got a 
lot more questions about how you are using this mitigation fund 
and where these moneys are going, and I have run out of time so 
I am going to have to yield to the ranking member, Mr. Tierney.
    Mr. Tierney. Well, again, I want to thank you for being 
here. I mean, I get it. I get what the issues are here. I 
assume by this time all of you get it as well. And I don't want 
to keep beating a dead horse, but I--you know, I guess the 
point is that I think there have been some situations where 
people have thought that it has been affected to some degree by 
the memorandum of agreement by the laws that exist or whatever, 
but you believe there is a way to work it out with the 
memorandum of agreement and by working together cooperatively 
on that.
    I was taken aback by Mr. Chaffetz' remark that people are 
dying, people are dying. Can you give me any instances of a 
person who has died as a result of a wildlife regulation or 
environmental regulation?
    Mr. Vitiello. No.
    Mr. Tierney. Ms. Thorsen, can you?
    Ms. Thorsen. No.
    Mr. Tierney. Mr. Jensen, can you?
    Mr. Jensen. No, I am not aware.
    Mr. Tierney. Certainly, if there were, I assume you would 
be with heightened urgency to resolve this in some fashion, am 
I right?
    Mr. Vitiello. Yes, sir.
    Ms. Thorsen. Yes, sir.
    Mr. Tierney. I mean, I think it is disturbing to all of us 
that, you know, if there is a notion that there is some 
inability of the Border Patrol to get to an area they need to 
get to protect our national security, I think we would all be 
hopping up and down. But I am going to give you an opportunity. 
Again, I am not hearing that from you. Where there might be an 
isolated incidence of something being delayed, you are telling 
me, as far as you know, that in any particular anecdote or 
incident, there has not been one that has resulted in danger or 
death or anything of that nature and that, you know, we 
probably need some processes to expedite resolution of some of 
these issues, and that is something you are all charged with. 
Does that sound reasonable?
    Mr. Vitiello. Agreed. The framework exists to solve these 
problems in an expeditious way. Now, we can all recognize that 
within any relationship, you are going to have different 
expectations, but the MOU is designed to set those expectations 
uniformly.
    Mr. Tierney. So what is a bigger problem. Is the remoteness 
of these areas, the ruggedness of the terrain, is that a bigger 
problem than trying to work on differences over, you know, any 
conflict with national security and some of these environmental 
or wildlife regulations, or is it about the same, or is it not 
a problem at all?
    Mr. Vitiello. Well, there are various challenges that 
agents have while patrolling the border, terrain among them, 
this particular issue among them, the frameworks about their 
authority and how they exercise it. There are concerns about 
private land as well within the immediate border. So that is 
the role of the patrol agent, to sort through those things. 
That is the role of leadership, to give them the vision and the 
plans to make that work and be effective as they possibly can 
within those frameworks. There are limits on all the 
authorities and the activity of Federal agencies, and we are 
not excluded from that.
    Mr. Tierney. There was one incident report that was 
mentioned here earlier about a request to put up some 
technology or review cite us for that. It got delayed 4 months 
before it was implemented. Is that a particular situation that 
any of you have been made aware of?
    Mr. Vitiello. I know of the issue in preparation for the 
hearing.
    Mr. Tierney. Can you tell me a little bit about it?
    Mr. Vitiello. As I understand it, briefly, there was a 
mobile scope truck that we wanted to move from one area to the 
other. Eventually, that got sorted through, and we moved it.
    Mr. Tierney. And was there a 4-month delay.
    Mr. Vitiello. As I understand it, yes.
    Mr. Tierney. And what consequences were likely to have 
occurred because of that delay?
    Mr. Vitiello. I am not aware of specific things. So in the 
context of the operation, people wanted to move that equipment 
and that capability from one location to the other. And so 
under the terms, we need to sort through that. Under the terms 
of the MOU, those are the conversations that we are supposed to 
have.
    Mr. Tierney. You would agree that 4 months seems 
extraordinary for a time to resolve such an issue.
    Mr. Vitiello. I don't know the specifics in that regard, 
but it seems reasonable that 4 months is something that we 
ought to be thinking about.
    Mr. Tierney. I mean, it strikes me as being extraordinary, 
and that is something we all ought to be thinking about on 
that.
    Mr. Vitiello. Agreed.
    Mr. Tierney. So we can trust that is being worked on, that 
that kind of delay is----
    Mr. Vitiello. In this case, as I understand it, but the 
piece of equipment after that time period did get moved.
    Mr. Tierney. Much more quickly.
    Mr. Vitiello. Right.
    Mr. Jensen. Congressman, I may not be able to speak to the 
specific circumstances of that one example, but I think it is 
important that we have had reference to the GAO report numerous 
times today. And if I could, I would like to read two sentences 
from the report.
    Mr. Tierney. Sure. What page are you on?
    Mr. Jensen. This is on the summary page, right off the 
front, the highlights. We have heard this now numerous times 
from various members: Patrol agents in charge for 14 of the 17 
stations reported that they have been unable to obtain a permit 
or permission to access certain areas in a timely manner 
because of how long it takes for land manners to conduct 
required environmental and historic property assessments. That 
is in the GAO report. You need to read all the way through. And 
I hope that our witnesses on the second panel----
    Mr. Tierney. Well, give us a synopsis of what the rest of 
it would give us if you read through.
    Mr. Jensen. The other sentence is, despite the access 
delays and restrictions--and this is what really counts--22 of 
the 26 agents in charge report that the overall security status 
of their jurisdiction is not affected by land management laws.
    Mr. Tierney. So we have to work on the other four.
    Mr. Jensen. Yes. We do have areas we need to work. The MOU 
helps with that, and we are working to address those.
    Mr. Tierney. Thank you for clarifying that, and I yield 
back my balance.
    Mr. Bishop. Representative Chaffetz.
    Mr. Chaffetz. I yield to the gentleman from Utah.
    Mr. Bishop. Do you have the report there that you just 
read?
    Mr. Jensen. I have the cover page here.
    Mr. Bishop. The cover page doesn't deal with that. Because 
on top of that, it tells how 17 to 26, 14 to 26, and I went 
through eight pages of documented evidence where the delays 
were causing problems. That data you said, 22 out of 26, you 
actually go to page 32 in the report and find out what it says, 
is that the agents in charge of those particular areas told us 
their ability to maintain operational control in this area of 
responsibility have been unaffected by land management laws. In 
other words, no portion of their station's jurisdiction have 
had their border security status downgraded as a result of land 
management laws. That is not the same thing.
    And yet if you will go through that report, page after 
page, example after example, is an experience in which there 
had been delays for Border Patrol, and it is directly because 
of the land managers on the ground there from your department 
and your department. Ms. Thorsen, is there ever, ever an 
opportunity when you do this MOU debate, MOU workout, where the 
Border Patrol does not have to ask your department for 
something? Is there ever where you actually go and have to ask 
them, or is Border Patrol always having to come to you and you 
get to make the decision on whether it is allowed or not?
    Ms. Thorsen. No, the purpose of the MOU, and particularly 
the exigent circumstances situation, they make that decision. 
That is why we drafted the framework for those----
    Mr. Bishop. No. To whom do they have to go for permission.
    Ms. Thorsen. The permission lies in the MOU. It is in their 
judgment, the Border Patrol agent's judgment, to execute 
operation--exigent circumstance or emergency pursuit in--when 
they feel the need.
    Mr. Bishop. Then go back to the report and read what 
happens there, because that request has to be approved by the 
land manager, and if the land manager doesn't, then all hell is 
there to pay. This MOU does not work because it is an unfair 
MOU, which means Border Patrol has to come to you and beg for 
permission. And time after time after time, you are not 
granting that permission, and you are not doing it in a timely 
fashion. And when you do do it, then you ask for unmitigated 
amounts of money which Congress has no control. We do not know 
how much money you are getting from Border Patrol. We don't 
know where you're spending it. And the one time we tried to get 
an appropriations act, you actually gave us a list of what you 
are getting and where you are spending it, and it was removed 
in a conference committee report. There are so many problems 
that are down there, it makes one's head spin, especially with 
the rhetoric that we are getting here today. I yield back to 
the chairman.
    Mr. Chaffetz. Reclaiming my time.
    Mr. Vitiello, my understanding, according to GAO, they 
classify about 129 miles, or 15 percent, were classified--of 
the border--were classified as, ``controlled'' and that the 
remaining 85 percent were classified as managed. Can you 
explain the difference from your understanding of the two?
    Mr. Vitiello. It has to do with the revision of the 
national strategy in 2004. We defined what we believed was 
operational control for the context of building resources along 
the border. So specific to the plans that were made in sectors 
and in station level planning, what we decided was operational 
control meant that you had the ability to detect, identify, 
classify, respond and resolve to intrusions at the immediate 
border. It as a very tactical definition designed for the local 
people to understand what they believe the capabilities and 
resources were.
    Mr. Chaffetz. So what is managed.
    Mr. Vitiello. The difference between managed and control is 
the amount of timing from our resolution to--from the 
incursion. So control at the immediate border would happen in 
realtime at the immediate border and managed would be some 
portion less than that, or it would take longer to get to that.
    Mr. Chaffetz. And you have talked about how over the course 
of your career, you have gone from just a few thousand agents 
to roughly 20,000 agents.
    Mr. Vitiello. We are currently just over 20,000; that is 
correct.
    Mr. Chaffetz. Just over 20,000. Yet I look here at this 
map, and I look at the Tucson region, as compared to say either 
Yuma or El Paso or Del Rio or whatever you want; why is it that 
51 percent of the problem seems to be in the Tucson region? Why 
is that?
    Mr. Vitiello. We believe it is because of our success in 
other areas. We have managed--when I came on the Border 
Patrol----
    Mr. Chaffetz. I am trying to figure out why you are having 
little to no success in Tucson.
    Mr. Vitiello. We are having great success in Tucson.
    Mr. Chaffetz. How can you say that?
    Mr. Vitiello. Listen, I have watched us build resources in 
Tucson.
    Mr. Chaffetz. You are the head of this agency and you----
    Mr. Vitiello. Sir, I was in Tucson in the year 2000 when we 
were catching 1\1/2\ million people across the Southwest 
border, and over 600,000 of those people were coming in through 
the Tucson sector. Last year alone, we are at 51 percent; this 
year we are 44 percent. Now, is that wild success? Is that, you 
know----
    Mr. Chaffetz. You just said it was great success.
    Mr. Vitiello. We have done a lot of work this year, last 
year, the year before and since 2000, when it was completely 
out of control there. We are maintaining what we have--the 
gains we have made in Tucson and are proceeding to give that 
area resources like they have never seen before. CBP has over 
6,000 employees in the State of Arizona. We alone have, in the 
Tucson sector alone, nearly 4,000, and we are moving toward a 
number over 4,000. There is more technology out there than 
there has ever been. We spoke about the Ajo towers and the 
Tucson----
    Mr. Chaffetz. My time has expired. I think you are----
    Mr. Bishop. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Vitiello, you mentioned earlier in your testimony that 
in carrying out various responsibilities, that you consult with 
the tribes. How is that working out? Is that running as you 
would want it to run?
    Mr. Vitiello. Sure. So we have--within the public lands 
liaison apparatus, we have people who are designed to do 
liaison work. The leadership also pays attention to the 
relationships that exist for the Indian nations that are at the 
immediate border.
    Mr. Kildee. I am very happy to hear that. Sometimes 
agencies tend to forget that. We know that Article I, Section 8 
of the Constitution says that Congress shall have the power to 
regulate commerce with foreign nations, the several States and 
Indian tribes. So that is the constitutional basis for that.
    And I am always, with any group, whenever you are called 
upon to work with the Indian tribes--it all works well in 
Michigan. We have 12 tribes in Michigan, and it works well 
there, and you find it is working well in your area also, or 
your area is very broad.
    Mr. Vitiello. Similarly, you know, relationships are--you 
need constant maintenance, and so things ebb and flow. But we 
understand the import of our responsibilities there, and 
leadership in the field takes those responsibilities seriously.
    Mr. Kildee. Thank you for that. Thank you very much.
    Mr. Vitiello. Thank you.
    Mr. Bishop. Representative Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Jensen, how many miles of roads are in the border zone 
of the Coronado Forest?
    Mr. Jensen. I would have to get back to you on the specific 
number of miles of roads.
    Mr. Pearce. You wouldn't happen to know that, would you, 
Mr. Vitiello?
    Mr. Vitiello. I do not.
    Mr. Pearce. You all don't do patrols out there.
    Mr. Vitiello. Coronado is part of the area Tucson sector 
covers, yes.
    Mr. Pearce. Do you have anybody in the audience that might 
know that?
    Mr. Jensen. We will have to get back to you, sir.
    Mr. Pearce. Mr. Vitiello, you just stated in response to a 
question that the framework exists to solve the problem with 
respect to getting into areas with limited access by Federal 
law, that would be wilderness and such areas as that. Did I 
hear you correctly?
    Mr. Vitiello. That is correct.
    Mr. Pearce. And then did I hear you correctly that in cases 
of danger and death, that you would have a heightened sense of 
emergency?
    Mr. Vitiello. Yes.
    Mr. Pearce. Can you explain why 68 percent of Organ Pipe is 
still--people are advised not to go in there, American citizens 
are advised not to go in there? Doesn't it qualify as an area 
if you tell people don't go in there, that they might not come 
out alive, wouldn't that be danger or death? Wouldn't that move 
at sort of the top of the list of your heightened sense?
    Mr. Vitiello. Zone by zone, area by area, we are concerned 
with our responsibilities within the area of the immediate 
border. And so Organ Pipe is a challenge because of its status. 
It is also a challenge because of the activity that is there. 
But we are making--we have made plans. We are making 
investments to put that situation in hand.
    Mr. Pearce. It has been that way for--when did they first 
start putting that off limits to people?
    Mr. Vitiello. I don't know that specifically, but I am 
going to guess it is somewhere around the 2000 timeframe when 
it was a lot busier than it is now.
    Mr. Pearce. So you have had 10 or so years, 11 or whatever.
    Ms. Thorsen, I am interested, again we are talking about 
how easy it is to work with wilderness, and it doesn't affect 
us in the least. I mean, that is sort of the testimony. Can you 
explain the reasoning behind not allowing a surveillance tower 
in the Organ Pipe Wilderness, and it was forced to be placed 
outside the wilderness in a place that couldn't see as much of 
the border and as well? Wouldn't that be an effect? Or is that 
just sort of come into the close but not qualify category?
    Ms. Thorsen. Under the provisions of the Wilderness Act, 
one of the challenges we have had is placement of permanent 
structure, which would be a tower. In negotiations and 
discussions that we have had with the Border Patrol and the 
park, they moved those towers in locations within the boundary 
of the wilderness but that are not designated, that chunk of 
land is not designated specifically wilderness. So they are 
actually generally in the same vicinity; they are just are not 
sitting on what is designated as wilderness.
    Mr. Pearce. And so, in this case, are you trying to tell me 
that the alternate site had as good visibility as the site that 
was in the wilderness? Because we have exactly the opposite 
testimony. And if that is the case, if you choose a case with 
less surveillance capacity, then I still along, with my 
colleagues, don't understand how you can sit here with a 
straight face and say that it doesn't affect, that everything 
is OK, that framework exists.
    I yield back, Mr. Chairman.
    Ms. Thorsen. If I may respond, Congressman.
    Mr. Pearce. That is up to the chairman.
    Ms. Thorsen. If I may respond, Mr. Chairman, to the 
Congressman's point.
    Mr. Bishop. Go ahead.
    Ms. Thorsen. In working with the Border Patrol, the Border 
Patrol, and I am going to speak some for Mr. Vitiello here, 
there if the tower does not give them the totality of what they 
want to see, what they will do is implement additional measures 
to fill that gap.
    For instance, in their new approach, SBInet has gone away, 
the integrated tower--integrated fixed tower approach, they 
will supplement those areas with mobile surveillance units or 
RVSS sites or other types of technology to fill those gaps, so 
they will not go uncovered between technology and resources.
    Mr. Pearce. I will pass your assurances along to the 
constituents of mine that live along the border who are scared 
to death every day, who witnessed or who know the family who 
was killed and whose family itself lives in our district, I 
will give them your reassurances. Thank you.
    Mr. Bishop. Are there other questions people have for 
another round?
    Raul, did you have a question you wanted to ask?
    Mr. Labrador. I yield my time for Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Mr. Vitiello, I want to clarify. Are you aware of anybody 
who has been killed along this border region that we are 
talking about here?
    Mr. Vitiello. Which----
    Mr. Chaffetz. I mean, I talked specifically about the 
problems that we are having in Arizona, and Mr. Tierney's 
questions about people are dying. Are they not dying?
    Mr. Vitiello. There have been deaths along the border, and 
there have been that directly impact the Border Patrol, yes.
    Mr. Tierney. Will the gentleman yield?
    Mr. Chaffetz. Yes, please.
    Mr. Tierney. Just so we understand, my question was, was 
there people dying in direct correlation to the lack of 
enforcement of an environmental or one of these other laws that 
we are discussing today, not whether people are dying. So let's 
be genuine about this.
    Mr. Vitiello. Correct. In the context of that question, 
this specific issue has not caused deaths that I am aware of.
    Mr. Tierney. Thank you very much.
    Mr. Chaffetz. So you are not aware of anybody dying that is 
coming north, trying to go through the areas, going through the 
Organ Pipe National, you are not aware of anybody who has died 
doing that?
    Mr. Vitiello. Look, there are deaths along the immediate 
border for people who dehydrate or get----
    Mr. Chaffetz. And coming north, correct.
    Mr. Vitiello. That is right.
    Mr. Chaffetz. I mean, I don't know how you define the 
immediate border, but the legal definition is 100 miles. So you 
are telling me that you are not aware of anybody.
    Mr. Vitiello. That has died as a result of our lack of 
ability to move in mechanized vehicles on protected lands, no, 
I am not aware of that.
    Mr. Chaffetz. We will go through this in greater detail.
    Anyway, let's go to Mr. Jensen here. Your written testimony 
states that the Forest Service has dedicated 13 officers to the 
border zone of the Coronado Forest; 10 of them are accompanied 
by canine units. What is the Forest Service total commitment to 
the border zone across the Southwest border? Are those officers 
armed, and what capacity do they have to stop illegal activity 
and defend themselves against criminals with high-powered 
weapons?
    Mr. Jensen. I will stand to be corrected, but I understand 
there is on the range of perhaps 50 agents in the Southwestern 
region of the Forest Service.
    Mr. Chaffetz. Are they armed?
    Mr. Jensen. To my understanding, yes, they are.
    Mr. Chaffetz. And are they able to apprehend somebody?
    Mr. Jensen. Yes, they are.
    Mr. Chaffetz. How often does that happen?
    Mr. Jensen. I would have to get back to you on the 
specifics of how often that happens, but they are in constant 
contact and undertake joint operations with the Border Patrol 
in apprehension activities, so I would imagine that it would be 
a fairly routine duty.
    Mr. Chaffetz. Your written testimony states that the Forest 
Service and the Border Patrol, ``rely on each other's strengths 
to work toward the common goals and mutual interests for the 
public and the National Forests,'' basically to protect the 
endangered and sensitive species. According to the Coronado 
National Forest Web site, this includes the Mexican gray wolf, 
cactus, the pygmy owl, the desert pupfish and the Pima 
pineapple cactus. Are we to believe that the Forest Service and 
the Border Patrol are balancing our national security with the 
Pima pineapple cactus and the desert pupfish?
    Mr. Jensen. It is not that sort of tradeoff, sir. We look 
at the existing laws in the books that require us to protect 
those threatened and endangered species.
    Mr. Chaffetz. But as Mr. Bishop pointed out, why is it 
deferred to--in the balance of the MOU, why is it that you are 
given deference, that they can't do what they think is best to 
secure the United States of America and secure their officers. 
They have to come get permission. That is the problem. That is 
why we are here today.
    Mr. Jensen. As Ms. Thorsen has testified, it is our 
experience in the Forest Service that the Border Patrol has all 
full authority to pursue suspects in all cases and 
circumstances around the border.
    Mr. Chaffetz. In all circumstances, that is your 
understanding of the MOU, in all circumstances.
    Mr. Jensen. We have not run into any trouble on Forest 
Service lands in this regard.
    Mr. Chaffetz. They have full and unfettered access to use 
motorized vehicles.
    Mr. Jensen. In the exigent and emergency circumstances.
    Mr. Chaffetz. OK. So that is different than full and 
unfettered access, which you have just said.
    Mr. Jensen. Allow me to clarify then. In the case that is 
outlined within the MOU, the Border Patrol has the ability to 
pursue suspects, be it on foot, be it on horseback or be it on 
vehicle, when the terrain and the circumstances dictate, and it 
is their decision and control when they do that.
    Mr. Chaffetz. I have a--Mr. Chair, I--and to the ranking 
member, everybody here, I have a serious problem where we are 
prioritizing desert pupfish above national security. I just 
personally believe that we really ought to be protecting the 
United States of America and protecting those officers who are 
putting their lives on the line every single day.
    Mr. Tierney. Will the gentleman yield?
    Mr. Chaffetz. When we have delays the way we have, I just 
find it unconscionable.
    Mr. Tierney. Will the gentleman yield?
    Mr. Chaffetz. Sure.
    Mr. Tierney. I think the delay issue we all have an issue 
with, and that is one of the things I left you, but I want to 
try and nail something down here, the three of you.
    When we have laws, the environmental law or the wilderness 
law, things of those nature, the laws are in effect, but you 
have memorandums of agreement as to how you will strike a 
balance when there is a competing interest, am I right on that?
    Mr. Vitiello. Correct.
    Mr. Tierney. And one of the competing interests would be a 
national security issue when somebody from the Border Patrol 
thought that it was an exigent circumstance or an emergency 
that they get into the area, correct?
    Mr. Vitiello. Correct.
    Mr. Tierney. And in those instances, where they think the 
national security is at risk or there is an emergency or an 
exigent situation, it is the Border Patrol agent and no one 
else who uses their professional judgment and determines 
whether or not they will go in there by mechanized vehicle or 
any other way, is that correct?
    Mr. Vitiello. That is correct.
    Mr. Tierney. So they are not setting up some pupfish or 
whatever it is up against something else; their determination, 
their professional judgment is, does national security require 
that we go in there by whatever means necessary and when they 
make that decision, it overrides Interior, it overrides 
Forestry, it overrides everybody else, am I correct?
    Mr. Vitiello. Yes, sir.
    Mr. Tierney. Thank you. I yield back.
    Mr. Chaffetz. I would say to my friend from Massachusetts: 
A, exigent circumstances has not been clearly defined; it has 
not been clearly delineated. No. 2, routinely the Border Patrol 
is not able to do what it is able to do in other areas in terms 
of locating towers, operating with vehicles.
    You know, I wasn't going to do this, but I think I am going 
to do this. If you have a sensitive heart, I am telling you, 
this is the most graphic thing I have ever seen. If you are a 
young child, don't watch this. I am going to show you four 
slides that are happening right near our border; this is on the 
Mexican side of the border. And this is what I am concerned 
about, what we are putting our men and women down there and 
saying go protect us, but we are not going to give you the 
resources because we are worried about the pupfish, so, you 
know, you go on horseback, you go just walk it. Go ahead, just 
show the first slide and just roll through these. We are going 
to do this swiftly. Don't look if you are sensitive to any sort 
of graphic image, OK. This is the kind of thing that we are 
sending our agents to deal with on a daily basis.
    Mr. Tierney. Mr. Chairman, a point of clarification. Is 
there a contention that our Border Patrol people and Interior 
people and others are responsible for the Mexican side of the 
border where these films are from?
    Mr. Chaffetz. Let's keep going. They are dealing with this 
threat coming through the United States of America. They are 
having to deal with this by the hundreds--you can turn them 
off. Please, turn them off.
    They are having to deal with this by the hundreds of 
thousands. I in good conscience cannot be a participant in the 
U.S. Congress and not give every tool and resource to the 
Border Patrol to secure that border. I don't give a crap about 
the pupfish. I do care about America, and I do care about those 
Border Patrol agents. And when you tell them they have to go on 
horseback when they much rather be in a vehicle, that is 
fundamentally wrong. I yield back.
    Mr. Bishop. OK. Do you want another minute in fairness?
    Mr. Tierney. No, no. I mean, look, I think we have made the 
point a hundred times here that the Border Patrol people are in 
whatever vehicle they think they need to be in at the 
appropriate time, and I think we can leave it at that.
    Mr. Bishop. Thank you.
    I appreciate that, the answers you gave him. Make sure they 
are enforced in some way. And you can be happy the pupfish has 
a 52-acre buffer zone that has been paid for by border 
security. So we wish that--we appreciate the witnesses for your 
testimony. Members of both committees have--if they have 
additional questions for the witnesses are asked to submit 
those, and we will ask for you to respond for them in writing.
    We are now ready for the next panel of witnesses. And do 
you need some time to reconfigure the table here? For the next 
panel of witnesses, we are also going to have to--they will 
need to be sworn in. But I would like, and especially while Mr. 
Pearce is here, to welcome up to the panel George Zachary 
Taylor, who is a retired Border Patrol officer and a founding 
member of the National Association of Former Border Patrol 
Officers. We will invite Gene Wood, who is also a retired 
Border Patrol officer and founding member of the National 
Association of Former Border Patrol Officers. Mr. Wood will be 
introduced by our colleague Mr. Pearce, if you would like to 
take a few minutes to do it justice.
    Mr. Pearce. Chairman Chaffetz and Chairman Bishop, members 
of the subcommittee, thanks for allowing me to be here on the 
dais with you today. I would like to take this opportunity to 
introduce my friend and constituent Gene Wood, Las Cruces, NM. 
Gene spent 30 years in the Border Patrol and served as sector 
chief in McAllen, TX, and San Diego, CA. I look forward to his 
testimony and to the testimony of the other witnesses here.
    But thanks again, and welcome him from New Mexico, sir. 
Thanks.
    Mr. Bishop. Thank you. I also want to recognize Jim 
Chilton, who is a fifth generation cattleman, whose land 
stewardship practices have won him awards. His family ranch is 
55 miles southwest of Tucson and includes 4 miles of border.
    As well as Ms. Mittal--is the first name Anu?
    Mr. Mittal. Yes.
    Mr. Bishop. That is the first name I have right today. 
Thank you.
    Anu Mittal, who is the director of Natural Resources and 
Environment for the Government Accountability Office. And I 
understand you are the author of the GAO report that we have 
been referencing throughout this case.
    Mr. Chaffetz.
    Mr. Chaffetz. It is the custom of the Oversight and 
Government Reform Committee to swear in all witnesses. If you 
would please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Let the record reflect they answered all in 
the affirmative. Thank you, Mr. Chairman.
    Mr. Bishop. We thank you all for being here.
    As mentioned to the earlier panel the practice--I just said 
that. As mentioned to the earlier panel, all of your written 
testimony will appear in the hearing record. You will have 5 
minutes to summarize it. The lights in front of you will I hope 
give you a countdown. If the yellow light comes on, that means 
you have a minute left. The red light means we will ask you to 
finish your testimony as you can. Now, I will also tell you 
that we are going to have another series of votes sometime 
soon. What I would like to do is try to get as far along as we 
can so we don't have to hold you. I hope none of you have 
afternoon plane flights going out of here because it ain't 
gonna happen.
    So if we could, Mr. Wood, we will just go left to right 
again. If you will be the first one to give your testimony, we 
would appreciate hearing from you.

STATEMENTS OF GENE WOOD, NATIONAL ASSOCIATION OF FORMER BORDER 
PATROL OFFICERS, FOUNDING MEMBER AND FORMER SECTOR CHIEF PATROL 
 AGENT, MCALLEN, TX, AND SAN DIEGO, CA; GEORGE ZACHARY TAYLOR, 
NATIONAL ASSOCIATION OF FORMER BORDER PATROL OFFICERS, FOUNDING 
 MEMBER AND RETIRED SUPERVISORY BORDER PATROL AGENT, NOGALES, 
 TX; JIM CHILTON, CHILTON RANCH, ARIVACA, AZ; AND ANU MITTAL, 
 DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT 
             ACCOUNTABILITY OFFICE, WASHINGTON, DC

                     STATEMENT OF GENE WOOD

    Mr. Wood. Thank you very much, Chairman Chaffetz and 
Bishop, and thank you to Mr. Pearce for his gracious----
    Mr. Bishop. Sir, if that thing moves, can it move any 
closer to you so we can hear you a little bit better? It is 
hard to hear.
    Mr. Wood. Is that better?
    Mr. Bishop. That is much better.
    Thank you, sir.
    Mr. Wood. My name is Gene Wood. As a retired member of the 
U.S. Border Patrol and founding member of the National 
Association of Former Border Patrol Officers, it is a real 
honor for me to talk today on the merits of the proposed 
legislation.
    I do not represent the Border Patrol in today's 
proceedings. Instead, my testimony will rely largely on 
personal knowledge and the expertise of hundreds of former 
agents who are members of our organization. Their many years of 
collective experience I believe will enhance my ability to 
present to you informative, accurate information and 
conclusions.
    The Border Patrol was established in 1924, and for nearly 
87 years, the supervisors and their agents have successfully 
developed techniques and strategies to prevent the illegal 
entry of aliens into our country. One of the most effective of 
these techniques is deterrence. It has proven to be a desirable 
strategy because it does not involve the dangers involved in 
physical arrests. It does not involve costs always incurred in 
the detention and removal of aliens.
    Today I would like to address part of my testimony to 
enforcement efforts in the Tucson sector of the Border Patrol. 
I have chosen that sector because I served there before I was 
chief as the deputy chief. It is one of the largest sectors on 
our southern border. It has 261 miles of common border with 
Mexico. Additionally, the sector area of responsibility 
contains large areas with various restrictive land 
designations. Since 2004, leadership of that sector has changed 
frequently with successive assignments of some of the most 
distinguished and experienced chiefs in the Border Patrol. With 
the support of Congress, the agency work force has increased, 
and we have even experimented with the assignment of National 
Guard troops. Technology has been improved.
    I believe, gentlemen, as does the National Association of 
Former Border Patrol Officers, that the difficulties 
encountered by the Border Patrol to gain operational control 
are not the result of poor management or lack of resources, it 
is simply an issue of denied access.
    Unfortunately, our country's willingness to accept these 
unwise restrictions has been aggravated in recent years by the 
unrelenting pressure of drug cartels and other international 
criminal enterprises. That brings us to one of the most 
difficult questions facing present Border Patrol supervisors 
and agents. How do we protect our national security 
successfully in these highly restricted areas? The time-proven 
and effective technique gained through years of experience are 
severely limited or at times completely eliminated because of 
these self-imposed restrictions. Expensive technologies cannot 
be efficiently implemented, and manpower assets become more 
difficult to utilize.
    For these reasons, the leadership of the National 
Association of Former Border Patrol Officers enthusiastically 
endorses the decisive remedies proposed by Congressman Bishop. 
This includes the 100-mile limits and waiver of all the 
restrictions listed in that proposed legislation. We believe 
that if enacted, it will have a high probability of success, 
and it is an absolute necessary first step to achieve our goal, 
our national goal of operational control.
    We also believe that the approval of this proposed 
legislation will help convince the American public that 
Congress is now seriously seeking remedies to improve national 
security and the public safety of our citizens. There is 
another reason it makes perfect sense to do this. My time is 
up.
    [The prepared statement of Mr. Wood follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.021
    
    [GRAPHIC] [TIFF OMITTED] T8220.022
    
    [GRAPHIC] [TIFF OMITTED] T8220.023
    
    [GRAPHIC] [TIFF OMITTED] T8220.024
    
    [GRAPHIC] [TIFF OMITTED] T8220.025
    
    [GRAPHIC] [TIFF OMITTED] T8220.026
    
    [GRAPHIC] [TIFF OMITTED] T8220.027
    
    [GRAPHIC] [TIFF OMITTED] T8220.028
    
    [GRAPHIC] [TIFF OMITTED] T8220.029
    
    [GRAPHIC] [TIFF OMITTED] T8220.030
    
    [GRAPHIC] [TIFF OMITTED] T8220.031
    
    [GRAPHIC] [TIFF OMITTED] T8220.032
    
    [GRAPHIC] [TIFF OMITTED] T8220.033
    
    Mr. Bishop. Thank you.
    You do have your written report as well, and there will be 
questions for you at the same time. And I still think we are 
going on the floor, so we have more time here.
    Mr. Taylor, if you would like to go, you are recognized for 
5 minutes.

               STATEMENT OF GEORGE ZACHARY TAYLOR

    Mr. Taylor. Thank you, sir.
    Chairman Bishop, Chairman Chaffetz, members of the 
committee, thank you for allowing the National Association of 
Former Border Patrol Officers to address this distinguished 
assembly. I am here to speak for passage of Mr. Bishop's 
legislation, H.R. 1505, the National Security and Federal Lands 
Protection Act.
    This bill is brilliant in its simplicity. Why? Because the 
primary purpose of border security is to ensure national 
security and promote public safety for all Americans, including 
Border Patrol agents on the border. Each of you represent 
constituents, towns and communities that have been adversely 
affected by illegal immigration and drug smuggling. No 
community in the United States is safe from these transnational 
criminals and criminal organizations.
    As long as the external borders of the United States remain 
open to them, they will continue to come. The level of violence 
these groups are capable of and routinely employ is 
incomprehensible to any civilized person. Border Patrol agents 
in Arizona spend a significant amount of time patrolling public 
lands because much of the land along the Arizona border is 
public land.
    These agents report that the Department of Homeland 
Security and Bureau of Customs and Border Protection are 
intentionally misrepresenting the situation along the southern 
border, especially concerning the relative safety of the border 
area and the number of aliens detected that get away.
    Therefore, I am here today to tell you what rank and file 
Border Patrol officers are unwilling to tell you, even if 
subpoenaed and placed under oath, for fear of reprisal from 
their employer. The agents in the field are saying that the 
Nogales, AZ, urban border area has become a more dangerous 
place to work and that the Federal public lands surrounding 
Nogales have evolved into a lawless area routinely prowled by 
heavily armed drug and alien smugglers from Mexico.
    Additionally, agents do not have unencumbered access on all 
public lands to patrol the border. The concept is simple. If 
you cannot access the border, you cannot patrol the border, and 
therefore, you cannot secure the border. Limited access areas, 
including wilderness and refuge areas, present a greater 
likelihood that agents will encounter armed criminals who will 
not hesitate to fire upon them and that the probability that if 
anyone is seriously injured they will surely die before that 
injured person can be safely transported or evacuated because 
of access issues.
    There is also the fact that they are reluctant to patrol 
these areas effectively because they may find themselves the 
subject of a dispute between their agency and the agency 
controlling the land they seek to patrol. So the agent on the 
ground, the very idea that a plant or some obscure animal is 
more important than their life is an unsettling reality that 
further discourages them in their efforts to secure the border.
    You need to protect our Border Patrol agents. An existing 
palpable concern is the perceived lack of interest on the part 
of the Department of Homeland Security to aggressively pursue 
criminals that kill or do--attempt to kill or do kill Border 
Patrol agents. To sweep these issues under the carpet is 
reprehensible.
    Here I have a copy of the Arizona hunting and trapping 
regulation showing, and I quote from the--Homeland Security 
issues along the international border may affect the quality of 
a person's hunt. The delineated area goes from the California 
border to the New Mexico border and includes all land south of 
interstate highways 8 and 10 and north as far as Arizona City, 
that line passing to the near west of Tucson. We have briefers' 
reports of agents following tracks of an all-terrain vehicle 
that cross the border illegally near Lukeville, AZ. They 
followed the trail across public lands north into Maricopa 
County, which is Phoenix, and apprehended a load of marijuana 
on an all-terrain vehicle driven by 15-year-old illegal alien 
with a rifle. Department of Interior employees have erected 
vehicle barriers 70 to 80 miles north of the Mexican border in 
the Table Top Wilderness to prevent smuggling vehicles from 
driving further north.
    I can go on for hours with individual examples of why this 
legislation is necessary. However, my 5 minutes is nearly up. 
We urge you to support Mr. Bishop's bill, H.R. 1505, to protect 
Federal lands and our Border Patrol agents by signing on as a 
co-sponsor as soon as possible to give the Border Patrol agent 
on the ground the unencumbered access to Federal public lands 
within 100 miles of the border they must have to secure the 
border and provide them the reassurance that the U.S. Congress 
is behind them in that effort.
    [The prepared statement of Mr. Taylor follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.034
    
    [GRAPHIC] [TIFF OMITTED] T8220.035
    
    [GRAPHIC] [TIFF OMITTED] T8220.036
    
    [GRAPHIC] [TIFF OMITTED] T8220.037
    
    [GRAPHIC] [TIFF OMITTED] T8220.038
    
    [GRAPHIC] [TIFF OMITTED] T8220.039
    
    [GRAPHIC] [TIFF OMITTED] T8220.040
    
    [GRAPHIC] [TIFF OMITTED] T8220.041
    
    [GRAPHIC] [TIFF OMITTED] T8220.042
    
    [GRAPHIC] [TIFF OMITTED] T8220.043
    
    [GRAPHIC] [TIFF OMITTED] T8220.044
    
    [GRAPHIC] [TIFF OMITTED] T8220.045
    
    [GRAPHIC] [TIFF OMITTED] T8220.046
    
    [GRAPHIC] [TIFF OMITTED] T8220.047
    
    [GRAPHIC] [TIFF OMITTED] T8220.048
    
    [GRAPHIC] [TIFF OMITTED] T8220.049
    
    [GRAPHIC] [TIFF OMITTED] T8220.050
    
    [GRAPHIC] [TIFF OMITTED] T8220.051
    
    [GRAPHIC] [TIFF OMITTED] T8220.052
    
    [GRAPHIC] [TIFF OMITTED] T8220.053
    
    [GRAPHIC] [TIFF OMITTED] T8220.054
    
    [GRAPHIC] [TIFF OMITTED] T8220.055
    
    [GRAPHIC] [TIFF OMITTED] T8220.056
    
    [GRAPHIC] [TIFF OMITTED] T8220.057
    
    [GRAPHIC] [TIFF OMITTED] T8220.058
    
    [GRAPHIC] [TIFF OMITTED] T8220.059
    
    [GRAPHIC] [TIFF OMITTED] T8220.060
    
    [GRAPHIC] [TIFF OMITTED] T8220.061
    
    [GRAPHIC] [TIFF OMITTED] T8220.062
    
    [GRAPHIC] [TIFF OMITTED] T8220.063
    
    [GRAPHIC] [TIFF OMITTED] T8220.064
    
    [GRAPHIC] [TIFF OMITTED] T8220.065
    
    [GRAPHIC] [TIFF OMITTED] T8220.066
    
    [GRAPHIC] [TIFF OMITTED] T8220.067
    
    [GRAPHIC] [TIFF OMITTED] T8220.068
    
    [GRAPHIC] [TIFF OMITTED] T8220.069
    
    [GRAPHIC] [TIFF OMITTED] T8220.070
    
    [GRAPHIC] [TIFF OMITTED] T8220.071
    
    [GRAPHIC] [TIFF OMITTED] T8220.072
    
    [GRAPHIC] [TIFF OMITTED] T8220.073
    
    [GRAPHIC] [TIFF OMITTED] T8220.074
    
    [GRAPHIC] [TIFF OMITTED] T8220.075
    
    [GRAPHIC] [TIFF OMITTED] T8220.076
    
    [GRAPHIC] [TIFF OMITTED] T8220.077
    
    [GRAPHIC] [TIFF OMITTED] T8220.078
    
    Mr. Bishop. Thank you very much.
    Mr. Chilton, you are recognized for 5 minutes.

                    STATEMENT OF JIM CHILTON

    Mr. Chilton. Thank you, Mr. Chairman.
    I am a rancher, and ranchers shoot straight. And it was 
really upsetting to sit here and listen to the bureaucratic 
double-talk by the Forest Service, Fish and Wildlife--the BLM 
and the Border Patrol.
    I live on the border. Four miles of my ranch is the 
international border. The border is not signed or marked and 
consists of a five-strand barbed-wire fence, similar to the 
ones one sees along highways. There is no wall, and you would 
never know it was the international border by viewing it. But 
the cartels know.
    We strongly believe that the Border Patrol must control the 
border at the border, not 10, 20, or 100 miles inside America. 
We have heard that--and it was a few years ago--that the Border 
Patrol found several backpacks near our ranch which contained 
Yemeni passports. We wonder whether the owners of the backpacks 
were tourists or terrorists.
    We must protect the national security above all else. 
National security must not be trumped by environmental laws or 
Federal land managers. It would seem impossible to win World 
War II if the military had been forced to comply with current 
laws, such as the National Environmental Policy Act, the 
Endangered Species Act, the Clean Water Act, and other acts 
enacted by Congress after World War II. The construction of 
thousands of military bases and airfields and port facilities 
inside the United States during the war would have been delayed 
for years.
    Wouldn't it make sense to control the border at the border 
by completing the border fence? There is no border fence from 
Nogales to Sasabe of about 50, 60 miles. And wouldn't it make 
sense to have functioning 21st-century communications near the 
border, installing cameras and sensors and using drones and 
helicopters and satellites and other proven technologies 
developed by the military?
    The Border Patrol needs to be able to construct roads, 
helicopter pads, and place forward operation bases at very 
close or next to the border and be free of impediments caused 
by environmental laws and Federal land managers. Land managers 
must not be allowed to interfere with the access of the 
essential use of land to protect we, the citizens.
    Recently, environmental mitigation diversions resulted in 
$50 million of Border Patrol funds being transferred to the 
U.S. Fish and Wildlife Service for alleged environmental 
damage. The real environmental damage is being caused by drug 
and people traffickers, whose impact is enormously more harmful 
to the border than the Border Patrol.
    We are told by the Border Patrol that approximately 20 
percent of the undocumented border crossers have criminal 
records. Criminals who engage in human and drug transportation 
find it convenient to use wildlife refuges and wilderness areas 
as easy corridors to hide and travel. My fellow rancher, Rob 
Krentz, was murdered, with the killer escaping back to Mexico 
through the San Bernardino National Refuge. Emphatically we 
oppose the designation of any and all new wilderness areas, 
wildlands, or refuges within 100 miles of the southern border. 
Such designations are virtual gifts to Mexican cartels.
    It is outrageous that hundreds of Mexican cartel scouts, 
with the best binoculars, night vision, and encrypted satellite 
phones, have been found to occupy the tops of mountains near 
our ranch and near our house and dozens of miles inside the 
border. As a consequence, the foreign cartel scouts know where 
the Border Patrol is located at all times and can then 
carefully guide AK-47-gun-packing druggers and people smugglers 
through the mountains and valleys without being spotted by the 
Border Patrol.
    We have been burglarized twice. Ranchers in the border area 
cannot leave their houses unguarded for a few hours, since 
their homes are likely to be broken into if someone is not 
there. We live with weapons near our bed. Our doors have 
weapons next to them. We have weapons in our vehicles, and we 
attach weapons in our scabbards on our saddles.
    The Border Patrol must control the border at the border so 
that citizens' civil rights, property rights, and human rights 
are protected. Ranchers along the border cannot have peace of 
mind until the border is, in fact, secured.
    [The prepared statement of Mr. Chilton follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.079
    
    [GRAPHIC] [TIFF OMITTED] T8220.080
    
    [GRAPHIC] [TIFF OMITTED] T8220.081
    
    [GRAPHIC] [TIFF OMITTED] T8220.082
    
    [GRAPHIC] [TIFF OMITTED] T8220.083
    
    [GRAPHIC] [TIFF OMITTED] T8220.084
    
    Mr. Bishop. Thank you. I appreciate that.
    Just so you know, there is a vote that is going on right 
now, and what we have told Members is to go quickly vote and 
then come back. So we are not walking out of this. There will 
be people coming back here again.
    Ms. Mittal.

                    STATEMENT OF ANU MITTAL

    Ms. Mittal. Chairman Chaffetz and members of the 
committees, I am very pleased to be here to participate in your 
joint hearing on environmental laws and Border Patrol 
operations.
    As you know, 40 percent of the southwest border is Federal 
land, managed by the Departments of the Interior and 
Agriculture. Even though these lands are characterized by 
remote and rugged terrain, they have not deterred illegal 
border crossers, whose activities have damaged the environment 
by creating thousands of miles of illegal trails, dumping tons 
of trash, and causing wildfires to escape on these lands.
    Border Patrol and land agency officials both recognize that 
stopping illegal traffic as close to the border as possible is 
essential not only to protect national security but also to 
protect the natural and cultural resources on Federal lands.
    Last fall, GAO issued two reports on Border Patrol 
operations on Federal lands along the southwest border. My 
testimony today will summarize the key findings of both of 
these reports. These reports were prepared collaboratively by 
staff in GAO's Homeland Security and Justice team and GAO's 
Natural Resources and Environment team.
    Accompanying to me today is Rich Stana, the director who 
leads GAO's work on border security issues.
    First, we found that Border Patrol must comply with various 
land management laws such as NEPA, ESA, and the Wilderness Act 
when conducting operations on Federal lands. Under these laws, 
Border Patrol, like other Federal agencies, must obtain 
permission from the land agencies before agents can undertake 
activities such as maintaining roads and installing 
surveillance equipment on Federal lands.
    To help implement these laws, Border Patrol and the land 
agencies have developed several interagency agreements. We 
heard today about the 2006 MOU. And these have led to numerous 
instances of enhanced cooperation and better access for Border 
Patrol on some Federal lands.
    However, we also found instances where, despite these 
interagency agreements, land management laws had impacted 
Border Patrol's access to Federal lands. For example, 14 of the 
26 stations, as was earlier mentioned, responsible for 
patrolling Federal lands along the southwest border told us 
that they sometimes face delays because of the length of time 
it takes land managers to complete NEPA requirements before a 
permit can be issued.
    We found that some of these delays could have been reduced 
if Border Patrol had used its own resources to perform required 
NEPA environmental assessments, and other delays could have 
been reduced if the agencies had conducted programmatic 
environmental impact statements for the region, as allowed 
under the act. We recommended that the agencies take these 
steps to avoid such delays in the future.
    In addition, five stations told us that, because of the ESA 
and the presence of endangered species, they had to change the 
timing or location of their ground and air patrols. However, 
they also told us that these changes had not affected their 
ability to detect or apprehend illegal aliens on Federal lands.
    Second, we found that while land management laws had caused 
delays and restrictions, they had not impacted the operational 
control status for 22 of the 26 Border Patrol stations along 
the southwest border. Instead, we found that 18 of these 
stations reported that the remoteness and ruggedness of the 
terrain and dense vegetation had affected their level of 
operational control on Federal lands more than access delays or 
restrictions caused by the land management laws.
    According to these stations, the key to obtaining 
operational control on Federal lands on the southwest border is 
to have a sufficient number of agents, have access to 
additional technology, and have additional tactical 
infrastructure. They did not identify changing the 
environmental laws as a key requirement.
    Four stations along the southwest border did tell us that 
their ability to achieve or maintain operational control for 
Federal lands under their jurisdiction had been affected by 
land management laws. However, only two of these stations had 
requested additional resources to facilitate increased or 
timelier access to regain operational control. In both of these 
cases, their requests were denied by senior Border Patrol 
officials because of other higher agency priorities.
    Finally, 7 years ago, we were very critical of the lack of 
information sharing and communication that existed between the 
Border Patrol and the land agencies. In 2010, however, we found 
that the agencies had made significant progress in some areas 
as a result of the implementation of various interagency 
agreements, but we also found that they could still take 
additional steps to ensure that coordination of threat 
information occurs in a timely manner and that agencies have 
compatible radio communications. The agencies are currently 
taking actions to implement our recommendations.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to any questions you have.
    [The prepared statement of Ms. Mittal follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.085
    
    [GRAPHIC] [TIFF OMITTED] T8220.086
    
    [GRAPHIC] [TIFF OMITTED] T8220.087
    
    [GRAPHIC] [TIFF OMITTED] T8220.088
    
    [GRAPHIC] [TIFF OMITTED] T8220.089
    
    [GRAPHIC] [TIFF OMITTED] T8220.090
    
    [GRAPHIC] [TIFF OMITTED] T8220.091
    
    [GRAPHIC] [TIFF OMITTED] T8220.092
    
    [GRAPHIC] [TIFF OMITTED] T8220.093
    
    [GRAPHIC] [TIFF OMITTED] T8220.094
    
    [GRAPHIC] [TIFF OMITTED] T8220.095
    
    [GRAPHIC] [TIFF OMITTED] T8220.096
    
    [GRAPHIC] [TIFF OMITTED] T8220.097
    
    [GRAPHIC] [TIFF OMITTED] T8220.098
    
    [GRAPHIC] [TIFF OMITTED] T8220.099
    
    [GRAPHIC] [TIFF OMITTED] T8220.100
    
    [GRAPHIC] [TIFF OMITTED] T8220.101
    
    [GRAPHIC] [TIFF OMITTED] T8220.102
    
    [GRAPHIC] [TIFF OMITTED] T8220.103
    
    [GRAPHIC] [TIFF OMITTED] T8220.104
    
    [GRAPHIC] [TIFF OMITTED] T8220.105
    
    [GRAPHIC] [TIFF OMITTED] T8220.106
    
    [GRAPHIC] [TIFF OMITTED] T8220.107
    
    [GRAPHIC] [TIFF OMITTED] T8220.108
    
    Mr. Bishop. Thank you.
    I appreciate all of you for giving your statements. They 
will be there for the record. And if I forget at the end, if 
Members have additional statements that are written, we may ask 
you to respond to those at the same time in a timely fashion.
    Ms. Mittal, let me go through a couple of questions, then, 
if I could, before the rest of my colleagues. As I understood 
you as you were talking here, a very nice, very balanced report 
you gave us here, but you did find a correlation between 
environmental laws and delays of the Border Patrol's ability to 
get permission and permits from some land managers.
    Ms. Mittal. What we found is that the implementation of the 
environmental laws had resulted in delays and restrictions.
    Mr. Bishop. This is a question that--you never ask 
questions if I don't know what the answer is. But I asked it of 
one of the other panelists, and I wanted to give you the 
question as well.
    In all of these issues that you went through, did you ever 
find a chance, when the request was made, that it was Border 
Patrol always asking the Interior or Ag for permission; it was 
never the other way around?
    Ms. Mittal. You asked that question earlier, and one of the 
things that we noticed is that Border Patrol has a lot of 
flexibility under these acts to actually undertake a number of 
these environmental assessments themselves, and they have not 
been doing that.
    Mr. Bishop. As long as they are allowed to do that. And I 
appreciate that very, very much. Thank you.
    Let me ask a couple other questions for the other three 
witnesses: Mr. Wood, Mr. Chilton, and Mr. Taylor. In your 
opinion, from your experience on the ground--and, actually, I 
wish the other panel was here to listen to some of your 
testimony, as well--are environmental laws, such as the 
Endangered Species, Wilderness Acts, compatible with border 
security? Do you have examples of the problem that you have 
seen with those?
    Any of you?
    Mr. Chilton, go ahead. Why don't you just go down that row.
    Mr. Chilton. The answer is, no, national security should 
not be trumped by environmental laws or rules and regulations 
of the different departments like Interior, Forest Service, and 
Fish and Wildlife.
    There is a refuge in Arizona called the San Pedro National 
Conservation Area. It starts at the international border where 
the San Pedro River enters the United States. There is a wall 
that comes each way and stops, and there is a 1,500-foot gap. 
The refuge is 2 miles wide, and the conservation area is 50 
miles long. The Border Patrol has no access into that area 
except at the border, and that is limited access. It is a path 
for druggers, illegals, and perhaps terrorists to walk 50 miles 
into the United States.
    And how does the Border Patrol try to patrol it? They 
patrol the perimeter. So if you have 50 miles one way and 50 
miles the other way and 2 miles on the end, that is 102 more 
miles of fence that the Border Patrol has to patrol. And they 
are not allowed into it. The roads, since it has become a 
national conservation area, have deteriorated so you can't 
drive. And the refuge--or the conservation district manager 
will not let the Border Patrol or anyone grade the roads and 
have access in there.
    Mr. Bishop. Thank you. I appreciate that.
    Mr. Wood and Mr. Chilton, let me change that question 
slightly for you. You are former Border Patrol agents. Do you 
see anything fundamentally strange that the Border Patrol has 
unlimited access on private property but does not have 
unlimited access on public property to do their jobs?
    Mr. Wood.
    Mr. Wood. Thank you for the question.
    It has not gone unnoticed to us that the memorandum of 
understanding that we have discussed earlier, it is nine pages 
of single-spaced typing. It is complicated to read. But the 
point I am making here is, in contrast to that MOU, the Federal 
statute now in effect allows Border Patrol unrestricted entry 
within a distance of 25 miles from any external boundary and to 
have access to private lands, but not dwellings, for the 
purpose of patrolling the border to prevent illegal entry of 
aliens into the United States.
    That statement is contained in only four sentences in 
paragraph (a)(3) of Section 287 of the Immigration and 
Nationality Act.
    Mr. Bishop. Thank you.
    My time has expired here, although I just want--I read one 
of the footnotes that you put in there that I thought was 
interesting. In the 1990 Arizona Desert Act that created one of 
these wildlife refuges, it was specifically in there the 
language that any kind of wilderness designation or 
environmental designation would not be allowed to interfere 
with the concept of national security.
    I found that a unique concept there. Maybe when we have 
some other time, I can come back and ask you to respond to that 
one.
    Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    The Border Patrol agent that was here represented that he 
thought what was happening in the Tucson region was great 
success. How would you react to that, Mr. Chilton?
    Mr. Chilton. The Border Patrol still is not at the border. 
The Border Patrol is doing what they can, I respect what they 
are trying to do, but the border is not secure. They can't get 
down to the border. They try to patrol 5, 10, 15 miles inside 
the border and allow us to live in a no man's land.
    There has been some diminishment in traffic across, but 
when I talk to the Border Patrol people in Nogales, they say 
the traffic is moving further west into the Indian nation and 
into the Organ Pipe area.
    And we don't see the people moving across our ranch. At one 
time, there was 30,000 or 40,000 people coming through a year. 
We don't see those people anymore because there are scouts on 
top of the mountains who are guiding the cartels and the people 
smugglers through our ranch and other ranches. And the Border 
Patrol is known--they know where the Border Patrol is at all 
times. And the Border Patrol doesn't see them, and they move 
right through the country, clear on to Pinal County and to 
Phoenix.
    Mr. Chaffetz. How dangerous is it there?
    Mr. Chilton. Well, when we are riding horseback, I pack two 
guns, a rifle and a pistol. And if I see people coming along 
with an AK-47 and a whole bunch of people with backpacks with 
drugs in them, I go the other way--fast. If I have to, I will 
fall off my horse and go to shooting.
    It is dangerous. It is dangerous, and we should not have to 
live under those conditions. The border should be controlled at 
the border.
    Mr. Chaffetz. Mr. Taylor, can you talk to me a little bit 
about the morale that you are seeing there? And how do these 
agents deal with the differences between what they can do in 
the other areas and what they can do in wilderness-type 
designation areas?
    Mr. Taylor. Well, we found out that in not only just the 
wilderness designations but the public land that adjoins the 
wilderness--and I am talking specifically about the Pajarita 
Wilderness--one of the first actions I had when I went there as 
a supervisor, at that time, you may or may not be aware, we had 
Federal troops supporting the Border Patrol. We had a combat 
alert team from the Marine Corps base working in conjunction 
with us. And a firefight ensued--this was back in 1989, I 
believe--between the Marines and the packers. And the land 
managers were not concerned about the fact that we had a 
firefight; they were concerned about the fire that ensued in 
the wilderness area. And so we had to quit going in there.
    Mr. Chaffetz. And how big a space and area was that?
    Mr. Taylor. That particular area--there is a protected area 
within the protected area, and that is where they were. And the 
reason the Marines were there is because that is where the 
smugglers chose to come through the border. And that internal, 
inside of the wilderness is relatively small; I think it is 150 
acres.
    Mr. Chaffetz. Ms. Mittal, a question for you. This 
definition between controlled and managed, did you feel like 
that there was a unified vision and understanding of those two 
definitions and what was truly controlled and what wasn't 
controlled?
    Ms. Mittal. We used the Border Patrol's definition of 
operational control. So that when we were talking to their 
agents, patrol agents in charge, we were using definitions that 
their agency had developed and that they should have been fully 
understanding of. So that is why we used the definition of 
operational control that was defined by the Border Patrol.
    Mr. Chaffetz. Very good.
    My time has expired. I yield back.
    Mr. Bishop. Mr. Kildee, do you have questions for these 
witnesses?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    First of all, I want to thank all of the witnesses for your 
testimony.
    I would like to ask Ms. Mittal, did the GAO find that any 
environmental laws need to be repealed or dramatically altered 
in order for the Border Patrol to effectively perform its 
mission?
    Ms. Mittal. During our audit, what we found is that it was 
the implementation of the environmental laws that was causing 
the delays and restrictions that the Border Patrol agents had 
identified.
    Nobody recommended that there was a particular law or a 
particular provision of the law that needed to be changed. What 
we noted was that the MOU that was implemented by the three 
agencies was not effective in implementing the environmental 
laws.
    Mr. Kildee. So Congress, then, in its position, should 
have, perhaps, more hearings on how we can better have the 
enforcement of these laws, then.
    Ms. Mittal. In our review of the four laws that were 
repeatedly cited by Border Patrol, what we found is that the 
environmental laws provide a lot of flexibility as well as a 
lot of options, and that the Border Patrol has not exercised 
all of the flexibilities and all of the options that are 
provided to it under these environmental laws.
    So it is very easy to go back and blame the land management 
agencies when you have not yet taken the actions that the laws 
provide you as the action agency. So I think the reason we did 
not make any suggestions or recommendations about changing the 
environmental laws was because there are flexibilities and 
options available to Border Patrol that it has not yet 
exhausted in trying to comply with the environmental laws.
    Mr. Kildee. OK. Based on your interviews, then, how 
significant a problem are public land access issues to the 
Border Patrol sector chiefs that you interviewed? What is their 
feeling on----
    Ms. Mittal. There were 17 Border Patrol agents in charge, 
out of the 26 that we surveyed, that told us that they had 
experienced access delays. However, not in every case did that 
cause a problem in their ability to fulfill their function. For 
example, there were five that had to change their patrols as a 
result of endangered species. But all of those Border Patrol 
agents told us that that had not impacted their ability to 
apprehend and detect illegal aliens on Federal land.
    So there was a mixed bag. In some places, the delays had 
caused an impact on their operations; in other places, it had 
not.
    Mr. Kildee. Thank you very much. I know Congress wants to 
and all of us at this table want to make sure we have the 
proper balance in writing our laws, and all your testimony 
today has been helpful.
    And I thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    I have some more questions. We will do another round here, 
if possible.
    Mr. Taylor, can I ask you--we have talked a lot about 
whether Border Patrol can go in under the exigent or emergency 
circumstances. Can you just tell me what is the difference 
between patrolling and going in for exigent or emergency 
circumstances?
    Mr. Taylor. Patrolling is something that is done routinely, 
daily. It involves two things: deterring people from crossing 
the border and detecting them once they have. Those are the two 
basic principles of patrolling the border.
    If you do not have access to the border, you can't patrol 
it, so you have to back off. The further you have to back off, 
the more territory you are ceding to the enemy.
    Mr. Bishop. Well, so, then, can I followup on that? Can you 
explain the obstacles the Border Patrol faces if they are 
blocked from building new roads or maintaining existing roads? 
And, you know, is it just good enough to have a single road 
running through it?
    Mr. Taylor. No.
    Let me qualify my background. I have been a field agent in 
the Border Patrol 26 years. The last 14 were in Arizona, so I 
worked that area.
    When you have a situation where you cannot get in there and 
pull somebody out that gets in trouble, you are best off not to 
send them in there. So what happens is, the area doesn't get 
patrolled at all.
    Mr. Bishop. I see. Thank you.
    Mr. Wood, can you explain the Big Hatchet repeater MOU, 
what it is and why it is a concern?
    Mr. Wood. Yes, sir. Thank you.
    The Big Hatchet is the name of a mountain peak located in 
southern New Mexico. It is the sole source for communication. 
Historically, there was a repeater up there; the land managers 
found out about it, and the Border Patrol was required to take 
it down. Since then, it has been put back up but with 
restrictions that make it very, very difficult to manage.
    As an example, the Border Patrol will be required to take 
that down if that area is designated wilderness. The caveat to 
that is, they will not be able to take it down, except through 
certain months of the year, because of the lambing season for 
some endangered species there.
    It is the highest peak in the area. It is going to be 
subject to damage by lightning and other natural effects. If 
that repeater goes down from lightning and it is during the 
period where Border Patrol cannot access it for those 
limitations, then that entire area is going to be without 
communication and the Border Patrol agents assigned in there 
are going to be in drastic danger.
    I, as a former chief, would probably pull the agents out of 
there if that happens. It is just not worthwhile to take that 
kind of chances against one of our agents.
    Mr. Bishop. Thank you. Thank you.
    Mr. Taylor, last December, Agent Terry was murdered on the 
national forest land. How should that tragedy influence this 
discussion?
    Mr. Taylor. I mentioned earlier, Mr. Chairman, that those 
areas that border wilderness--and, in this particular case, the 
Pajarita Wilderness borders the Coronado National Forest on the 
south--the ingress into the United States of the bandits that 
were involved in that apparently came through the Pajarita up 
through the Coronado, stayed in the Tumacacori Highlands, and 
at the intersection of the Tumacacori Mountains and the 
Atascosa Mountains is where the gunfight happened, where the 
agent was killed.
    And, apparently, the agent tried to follow the people that 
did the shooting back into Mexico, and they went through the 
Pajarita Wilderness, which the agents have no access to. As a 
matter of fact, there is not even a fence there in many places. 
It has been down on the ground so long that the vegetation has 
covered it.
    Mr. Bishop. Is this the map that we were talking about? Is 
this the area?
    Mr. Taylor. Yeah. Yes, sir.
    Mr. Bishop. So can you explain what we are looking at with 
that map?
    Mr. Taylor. OK. If you will look in the lower-right-hand 
corner, where that arrow is, that is where the Nogales Border 
Patrol station is. The next arrow to the left is coming up 
through the Pajarita more or less on the east side, and then 
the arrow on the left is the main corridor. They are coming 
from the west.
    And what they are going through, where you see that box, is 
what I call the kill zone. This is where the bandits--now, 
there are two groups of bandits. There are people that are 
trying to protect their drugs and aliens, and the other side is 
trying to rip them off from those people. And both groups, 
apparently, are armed.
    Once they get past the kill zone, you will look at the 
arrow in the upper-right-hand corner, that is where the Border 
Patrol checkpoint is. And the arrows to the left follow the 
highlands and take the aliens and these drug smugglers beyond 
the Border Patrol checkpoint.
    And the purpose of the box in there is to show that almost 
all of that kill zone is located on public land. And it is in 
the Coronado National Forest, and pretty much in the northwest 
quadrant is where Agent Terry was killed. And in the northeast 
quadrant, in a 4-day period, within the last 10 days, we found 
three bodies. We don't have a ruling yet on what caused the 
deaths.
    Also, in the upper-left-hand corner, in December 2009, is 
where Agent Russo was shot. And we believe it was the same 
group of bandits that shot both agents.
    So, if I can expand that just slightly, if you will think 
about Nogales as a horseshoe, it is covered on the west by 
public land, it is covered on the east by public land, and it 
is all mountains. And the reason the alien smugglers use that 
is because when they have the high ground, they have the 
tactical advantage. They can see the Border Patrol coming, and 
the Border Patrol has to go to them. And the only way they can 
do that is on foot. Horses won't work in that area, because in 
some of those places, to traverse them, you have to go on your 
hands and knees, it is that steep.
    I hope that answers your questions.
    Mr. Bishop. Thank you. In more detail than I have.
    Mr. Kildee, I am over here. I have a couple more questions. 
Did you have anything else further or are you----
    Mr. Kildee. No.
    Mr. Bishop. OK.
    Mr. Chaffetz.
    Then let me just ask two more questions of you all, and 
then we will give you--we will let you go, actually. Let me do 
the first one, for either Mr. Wood or Mr. Taylor.
    In a letter of the Fish and Wildlife Service to DHS 
regarding the San Bernardino Wildlife Refuge, an endangered 
species concern, the Fish and Wildlife Service asked the Border 
Patrol to stop doing road-dragging operations to cut signs near 
the refuge.
    Can you just explain to us what sign cutting is and why it 
is an important tool? And what are the implications if the 
Border Patrol cannot do this, or cannot use this tool?
    Mr. Wood. Yes, sir. As I alluded to earlier in my 
testimony, sign cutting is one of the most preferred and 
effective techniques that the Border Patrol has developed over 
the years.
    Sign cutting effectively requires that a road be parallel 
to the border, if that is the area that you want to protect. 
They call it a drag road because they are frequently smoothed 
over by one method or another. So that evidence of illegal 
entry is easily identified by the agents that are working that 
area.
    Now, one of the critical things of that is you have to have 
access. You can't effectively do sign cutting or drag roads 
away from the border. You have lost the funnel, then, where 
these entries occur. And they spread out over large, large 
distances.
    So if we are not able to use that technique, we are losing 
a very, very valuable tool that we have developed over years. 
And I can tell the committee, the Border Patrol agents now and 
previously were some of the best sign cutters in the country. I 
always have to mention that. It is an old technique, but it has 
been very effective for our agency.
    Mr. Bishop. Thank you.
    Mr. Chilton, I will give you the last chance to comment on 
a question I had.
    In 2007, this subcommittee received a letter from one of 
your good friends, the Krentz family. And the Krentz family--
the purpose of that letter was to oppose a new wilderness 
designation. In the letter, Mrs. Krentz stated, ``The Border 
Patrol should not be excluded, nor should national security of 
the United States be sacrificed in order to create a wilderness 
area. We are in fear for our lives and that of our families and 
friends.''
    I think you mentioned what happened to Rob Krentz within a 
year of that particular letter coming in. And I would ask you--
this isn't a question. We know what happened down there. This 
is a sad situation, should never have been the place. And I 
realize that Mrs. Krentz was also hit by another accident. A 
very difficult situation.
    Would you just extend our appreciation to that family and 
our concern? And I think one of the reasons why we are pushing 
forward with these concepts is because of the Krentz family and 
what they suffered down there. And if you would do that, I 
would be appreciative.
    Mr. Chilton. I will. And she helped me prepare my 
testimony. And she is really, really angry that wilderness 
areas are still being proposed. She is angry that her husband's 
killer has not been found. And she believes that national 
security demands securing the border at the border.
    And I will be very happy to call her this afternoon and 
talk with her. Thank you, Mr. Bishop.
    Mr. Bishop. I appreciate all that.
    Mr. Tierney, you get the chance to ask the last question.
    Mr. Tierney. That is highly unlikely, but we will see how 
it goes. I see my friend, Mr. Chaffetz, over there. I seldom 
get the last word with him. Thank you.
    Ms. Mittal, I just want to ask a couple questions. I had to 
step out for a while, and I apologize for that. But I want to 
reiterate a little bit what I understand your reports to be.
    And, Mr. Stana, behind you, I thank you for your work.
    From what I understand, there is no direct correlation 
between the environmental laws and the wilderness laws that 
can't be resolved by the departments working together and 
overcoming any conflict between national security and the 
intended protection of those laws. Is that correct?
    Ms. Mittal. What we found is that the MOU was designed to 
take care of those conflicts and make sure that the agencies 
work well together. In some areas, the MOU is doing a really 
good job. In other areas, it is not as effective.
    Mr. Tierney. OK. Now, did your study look at all into those 
areas that weren't effective as to what was the cause of that 
lack of total effectiveness?
    Ms. Mittal. What we heard repeatedly was that the land 
management agencies do not have the resources to always 
expedite Border Patrol's requests. But the Border Patrol does 
have flexibilities under the existing laws to undertake a 
number of the environmental assessments itself. It can conduct 
programmatic environmental impact statements for the region. It 
can establish categorical exclusions for its activities. And 
none of that has been done yet.
    Mr. Tierney. OK. So we need to focus in on making sure that 
they use all of their resources properly in that area. We need 
to look at increasing the resources where they are lacking. And 
I suspect that we probably need to do some better training. Is 
that a fair thing to say, to make sure that that MOU is 
operative and implemented in the manner that it should be?
    Ms. Mittal. Yes. Training was something that was brought up 
by almost every patrol agent in charge and every Border Patrol 
agent that we talked to. They would like to see more regular, 
face-to-face, land-unit-based training provided by a land 
management agency so that they understand the environment that 
they are working in.
    Mr. Tierney. OK. So better training, better use of what 
resources do exist, better resources where they are lacking. 
What else would you recommend to the attention of this 
Congress?
    Ms. Mittal. I believe that holding the agencies 
accountable, to make sure that they can demonstrate to you that 
they have exhausted all of the available flexibilities that 
they have available to their disposal and, yet, they are 
running into problems in doing their job.
    And if Congress can hold them accountable--I did not hear 
any new information provided this morning by any of the 
agencies that testified that they have exhausted the 
authorities that Congress has provided them. So I think holding 
them accountable is essential.
    Mr. Tierney. OK. So it looks to me as though the Congress 
did its job in terms of writing the laws. It may not be doing 
all that it should be doing in terms of oversight right now.
    Ms. Mittal. Yes.
    Mr. Tierney. And, hence, here we are. So, thank you very 
much.
    I yield back the balance of my time.
    Mr. Bishop. If there are no other questions? Fine.
    First of all, I want to thank this panel very much.
    Ms. Mittal, first, I want to appreciate the hard work that 
you and the GAO put into the report. I think it is very 
enlightening, especially if you read the entire report. And, 
yeah, I even did read the footnotes that you put in there.
    Ms. Mittal. You did, sir. I was very impressed.
    Mr. Bishop. To our three guests: Mr. Chilton, I appreciate 
you being here, for giving us the perspective of someone who 
actually lives on the border and faces these situations on a 
daily basis.
    Mr. Taylor, Mr. Wood, both of you, thank you for being here 
and representing what it was like to--representing the view of 
a Border Patrol agent who is no longer worried about his status 
as a Border Patrol agent. So thank you for your testimony very, 
very much. I appreciate it.
    Let's see. If there is no further business, then, without 
objection, this hearing is adjourned.
    Thank you again.
    [Whereupon, at 1:35 p.m., the subcommittees were 
adjourned.]
    [The prepared statement of Hon. Mike Quigley follows:]

    [GRAPHIC] [TIFF OMITTED] T8220.109
    
    [GRAPHIC] [TIFF OMITTED] T8220.110
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
